<html>
<title> - RENEWING THE SPIRIT OF NATIONAL AND COMMUNITY SERVICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         RENEWING THE SPIRIT OF
                     NATIONAL AND COMMUNITY SERVICE

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 19, 2007

                               __________

                           Serial No. 110-21

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

34-538 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Kenny Marchant, Texas
Jason Altmire, Pennsylvania          Luis G. Fortuno, Puerto Rico
John A. Yarmuth, Kentucky            David Davis, Tennessee
                                     Dean Heller, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 19, 2007...................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    48
    Davis, Hon. David, a Representative in Congress from the 
      State of Tennessee.........................................     3
        Prepared statement of....................................     3
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities, Committee on Education and Labor.     1

Statement of Witnesses:
    Brown, Marcia, AmeriCorps Alums and Hands On Atlanta.........    18
        Prepared statement of....................................    19
    Gudonis, Paul R., president, For Inspiration and Recognition 
      of Science and Technology (FIRST)..........................    23
        Prepared statement of....................................    25
        Appendix A: ``More Than Robots: An Evaluation of the 
          First Robotics Competition''...........................    31
        Appendix B: ``First Lego League Evaluation--Initial 
          Survey Results''.......................................    36
    Newman, Robert, actor and volunteer..........................     6
        Prepared statement of....................................     7
    Purifico, Robert T., president and executive director, 
      Destination ImagiNation, Inc...............................    12
        Prepared statement of....................................    14
    Stroud, Susan, executive director, Innovations in Civic 
      Participation..............................................     9
        Prepared statement of....................................    10


                         RENEWING THE SPIRIT OF
                     NATIONAL AND COMMUNITY SERVICE

                              ----------                              


                        Thursday, April 19, 2007

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:30 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] Presiding.
    Present: Representatives McCarthy, Shea-Porter, Kucinich, 
Sarbanes, Platts, McKeon and Davis.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Alejandra Ceja, Senior Budget/
Appropriations Analyst; Denise Forte, Director of Education 
Policy; Lamont Ivey, Staff Assistant, Education; Deborah 
Koolbeck, Policy Advisor for Subcommittee on Healthy Families; 
Ann-Frances Lambert, Administrative Assistant to Director of 
Education Policy; Stephanie Moore, General Counsel; Joe 
Novotny, Chief Clerk; Lisette Partelow, Staff Assistant, 
Education; Rachel Racusen, Deputy Communications Director; 
Kathryn Bruns, Minority Legislative Assistant; Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel; and Brad 
Thomas, Minority Professional Staff Member.
    Chairwoman McCarthy. I call the hearing to order. A quorum 
is present. The hearing of the subcommittee will come to order. 
Welcome to the second hearing of the Healthy Families and 
Communities Subcommittees on national service. The purpose of 
today's hearing is explore innovative programs with a focus on 
opportunities for service to assist in keeping America 
competitive in the global knowledge economy and help renew the 
spirit of national and community services in this country.
    Before we begin, I would like everyone to take a moment to 
ensure that your cell phones and BlackBerrys are on silence, 
which--thank you for reminding me. So please, everybody, cell 
phones, BlackBerrys off or just put them on vibrate.
    Pursuant to committee Rule 12(a), any member may submit an 
opening statement in writing which will be made part of the 
permanent record.
    I now recognize myself, followed by the gentleman from 
Tennessee, Congressman Davis, for an opening statement.
    I am really pleased that the Healthy Families and 
Communities Subcommittee is holding its second hearing on 
national service during National Volunteer Week. Congress 
celebrated National Volunteer Week through a resolution 
introduced by my colleague, the gentlewoman from New Hampshire, 
Congresswoman Shea-Porter, and passed by a floor vote 
yesterday. I hope that during this week there are celebrations 
of volunteering in each community across the Nation. No one can 
dispute the importance of volunteering and service to the lives 
of those who are the recipients of the service.
    Nor can we dispute the benefits experienced by those 
serving others. I would like to thank our very distinguished 
panel for their testimony and for their commitment to service.
    We have seen a rise of volunteering in the United States 
over time, with strong growth and momentum after 9/11, in 
Hurricanes Katrina and Rita; to this day, there is a strong 
volunteer presence in the gulf region working on recovery. We 
will hear today about the impact of volunteering in the gulf 
and using one's occupation and dedication to service to raise 
the level of awareness of volunteering and service in our 
Nation. Last year, 61.2 million Americans volunteered in the 
United States--26.7 percent of our population--serving an 
estimated 8.1 billion hours. Some have put a dollar value on 
the volunteers' time and estimated last year's service to be 
worth $152 billion to this Nation.
    We are a giving people. In fact, 5.3 million Americans 
worked with their neighbors to improve their communities 
without going through a formal organization and perhaps did not 
even consider that they were volunteering or doing service. 
They were just doing what needed to be done. It is our nature 
to help each other, to work together, to keep our communities 
safe, clean and inviting, and to offer service and assistance 
to those in the highest need around us.
    However, disturbingly, more people volunteered in 2005 than 
they did in 2006. In fact, one-third of those who volunteered 
in 2005 did not volunteer in 2006. It is time for us to renew 
our sense of service.
    Volunteering and service are quite possibly the way we 
resolve some of our communities', and our Nation's, most 
challenging problems.
    For example, to remain competitive in the global knowledge 
economy, we must re-ignite the enthusiasm for science and 
technology and its importance to our daily lives among our 
entire citizenship. But most importantly, it is in our 
students. One indicator of this is, NASA is concerned that in 
the future it will be unable to hire enough scientists, 
engineers and technicians to fill the positions held by the 
soon retiring baby boomers. Education is clearly part of the 
solution. But we cannot place all of this on the teachers.
    We must look to those baby boomers and their peers to start 
volunteering now and in after-school programs, Saturday 
programs and summer programs that will engage youth in math, 
science and technology and, yes, service.
    I think if these scientists and engineers heard the call to 
civic duty and had the clear sense they were directly affecting 
students' lives and the future of our Nation, they would 
compete with each other for any service or volunteer placement 
offered. Today we will hear of programs that do just give 
scientists, engineers, technicians and mathematicians the 
chance to serve and remain in service to our youth and 
therefore our Nation.
    Service must be meaningful, create positive change in our 
communities and completed with a well managed program with 
necessary training and recognition for the service completed.
    We must give volunteers and those who serve a reason to 
return and serve again. Today we will hear of being work being 
done in Atlanta Georgia to engage AmeriCorps alumni after their 
year of service has ended to continue to live by the AmeriCorps 
commitment to service. I hope from that testimony we will apply 
ideas to as many service programs as possible.
    I am looking forward to learning from this and other 
hearings we will hold on this issue, how we mobilize more 
volunteers to ensure a brighter future for all of our American 
youth, engage students in communities and harness the 
experience of our seniors. With that, now I yield to the 
distinguished member, Mr. Davis, for an opening statement.
    Mr. Davis. Good morning. I would like to welcome you to a 
hearing on renewing the spirit of National and community 
service. Before I begin I would like to express my heartfelt 
condolences to the Virginia Tech community. Blacksburg is just 
up the road from my northeast Tennessee district. And all of 
our thoughts and prayers go to the Hokie family.
    This hearing is a second in a series addressing community 
service and volunteerism. Today we will focus on organizations 
that are expanding community services through innovative 
methods. We will have the opportunity to hear from individuals 
who energize citizens to volunteer at both the local and 
national levels.
    Through the efforts of individuals like these, the 
organization that represent and the volunteers that make these 
organizations strong, we are reminded that community service 
takes place through efforts both large and small throughout 
this country.
    Every day, countless individuals of all backgrounds and 
ages inspire others through their efforts to address the common 
concerns of our neighborhoods, communities, Nation and world.
    Our community has seen inspiring examples of our citizens' 
willingness to serve in the wake of tragedy.
    Volunteerism isn't just about responding to disaster. It is 
also about lifting a hand to help a neighbor, teaching a child 
to read, restoring a neglected park and numerous other acts of 
good will that reaffirm our community's humanity.
    I look forward to hearing the testimony regarding 
innovative ways which service programs are using volunteers to 
provide assistance to children and their families.
    It is important this subcommittee take the experiences 
related to this panel into consideration when crafting 
legislation to reauthorize the Federal community service 
programs.
    Finally, I would like to thank our distinguished panel for 
joining us today and providing us with their insight and 
firsthand experiences with community service programs. With 
that, I yield back to chairwoman McCarthy. Thank you.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of Hon. David Davis, a Representative in Congress 
                      From the State of Tennessee

    Good morning. I would like to welcome you to our hearing on 
``Renewing the Spirit of National and Community Service.'' Before I 
begin, I would like to express my heartfelt condolences to the Virginia 
Tech community. Blacksburg is just up the road from my northeast 
Tennessee district, and all of our thoughts and prayers go out to the 
Hokie family.
    This hearing is the second in a series of hearings addressing 
community service and volunteerism. Today we will focus on 
organizations that are expanding community service through innovative 
methods. We will have the opportunity to hear from individuals who 
energize citizens to volunteer at both the local and national levels.
    Through the efforts of individuals like these, the organizations 
they represent, and the volunteers that make those organizations work, 
we are reminded that community service takes place through efforts both 
large and small throughout this country. Every day, countless 
individuals of all backgrounds and ages inspire others through their 
efforts to address the common concerns of our neighborhoods, 
communities, nation, and world.
    Our country has seen the inspiring example of our citizens' 
willingness to serve in the wake of tragedy. But volunteerism isn't 
just about responding to disaster. It is also about lifting a hand to 
help a neighbor, teaching a child to read, restoring a neglected park, 
and numerous other acts of goodwill that reaffirm our common humanity.
    I look forward to hearing testimony regarding innovative ways which 
service programs are using volunteers to provide assistance to children 
and their families. It is important that this Subcommittee take the 
experiences relayed by this panel into consideration when crafting 
legislation to reauthorize the federal community service programs.
    Finally, I would like to thank our distinguished panel for joining 
us today and providing us with their insight and first hand experiences 
with community service programs. With that, I yield back to Chairwoman 
McCarthy.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Davis. I notice that 
our ranking member, Mr. Howard McKeon from California has 
joined us and also, my colleague from New Hampshire, Ms. Carol 
Shea-Porter. Thank you for joining us.
    Today we will be hearing from a panel of witnesses. Your 
testimonies will proceed in the order that I introduce you. I 
would like to introduce our first witness, Robert Newman, cast 
member of the CBS day time drama Guiding Light. In January, 
Robert led the entire cast and crew of Guiding Light on a week 
long trip to Biloxi, Mississippi, as part of their 70th 
Anniversary Find Your Light celebration. After 1 week of 
service, they handed the new residents the keys to a fully 
furnished house. In addition, throughout 2007, Guiding Light is 
encouraging fans to volunteer with their actors from the show 
in a different city each month through a partnership with 
hands-on network. I look forward to hearing on the impact of 
you, your fans and national service in the endeavor.
    We will next hear from Susan Stroud. Ms. Stroud is the 
executive director of Innovations in Civic Preparation, an 
organization which supports the development of program and 
policy innovations in National and community service with a 
focus on youth service.
    Ms. Stroud will speak to us about the importance and the 
benefit of engaging middle school youth in service and programs 
such a Summer of Service program. Because I am such a supporter 
of engaging youth and creating meaningful opportunities for 
youth to grow and explore opportunities in life, I look forward 
to hearing from your testimony.
    We will then hear from Robert Purifico--am I saying that 
correctly, or am I near it?
    Mr. Purifico. Yes, you are.
    Chairwoman McCarthy. Thank you. He is a former teacher and 
the current President of Destination Imagination, an 
organization which seeks to inspire its participants of its 
diverse programs to learn the skills necessary to success in 
the 21st century.
    In the global knowledge economy, including critical 
thinking, problem solving, communication, teamwork, leadership 
and social skills. In particular, I hope to hear of the 
opportunity you have for youth to do community problem solving 
and service learning environment.
    Our next witness is Marcia Brown from Atlanta, Georgia. Ms. 
Brown works with hands on Atlanta where she manages a school-
based AmeriCorps program. However, we will hear how she works 
to keep AmeriCorps alumni involved in service after completing 
their term of service.
    Perhaps she holds the answer to how we can keep the one-
third of volunteers from leaving service after 1 year, and then 
we can apply that to possibly teaching as well.
    Now I would like to yield to my colleague, Congresswoman 
Shea-Porter, to introduce our next witness.
    Ms. Shea-Porter. Thank you. It would be my honor to 
introduce Paul Gudonis, who is the President of FIRST, based in 
New Hampshire, and that is For Inspiration and Recognition of 
Science and Technology. And he is sitting in for Mr. Dean 
Kamen, who has been very, very active, who is the founder of 
FIRST in 1992. Mr. Gudonis has 25 years of leadership 
experience in the information technology and communication 
industries. And he has been a consistent advocate for improving 
the impact of technology and education in our society.
    FIRST had a very humble beginning in a high school gym in 
Manchester, and it now reaches over 100,000 students and holds 
competitions in the Georgia Dome, has over 60,000 volunteers. 
FIRST designs accessible, innovative programs that build not 
only science and technology skills and interest but also self-
confidence, leadership and life skills.
    It also reaches out to students in elementary schools 
through high school, and I am proud to say that this is now an 
activity for people, for students who for many years did not 
have their outlet. They saw the sports teams, and they saw 
other teams, but they did not have their outlet. And it is 
true, a lot of people who didn't even know they had the talent. 
So they are creating tomorrow's leaders, and I thank him.
    Chairwoman McCarthy. I thank you. I also would like to 
recognize that Mr. Sarbanes from Maryland has joined us.
    Before we all begin, let me explain our lighting system. 
You see the little boxes in front of you. We have a 5-minute 
rule. Everyone, including members, is limited to 5 minutes of 
presentation or questioning. The green light is illuminated 
when you begin to speak. And when you see the yellow light, it 
means you have 1 minute remaining. When you see the red light, 
it means your time is expired and you need to conclude your 
testimony. Please be certain as you testify to turn on and 
speak into the microphones in front of you.
    We will now hear from our first witness Mr. Newman.

      STATEMENT OF ROBERT NEWMAN, ACTOR, THE GUIDING LIGHT

    Mr. Newman. Thank you very much, Congresswoman McCarthy, 
and thank you to this committee for allowing me the opportunity 
to be here today.
    Guiding Light is the longest running show in the history of 
broadcast. We celebrated our 70th year in 2007. We began on 
radio in January of 1937, went to television in the mid-1950s. 
While other shows are celebrating their 100th episode, we--
well, I can tell you that tomorrow I am shooting episode 
15,137.
    The question that came upon us last year was what to do, 
how to celebrate something like that. Our executive producer, a 
woman by the name of Ellen Wheeler, where most producers are 
probably coming up with an idea of a big party in Manhattan, 
she came up with an idea of a year of service, of volunteerism, 
of giving back to the community that has supported Guiding 
Light so wonderfully over the years. We already had a 
relationship with Hands On New York. She spoke with them. And 
she--and they in turn sent her over to Hands On Network.
    And we have developed a partnership with that group, the 
idea being that we would put together 12 events, one a month, 
that would be all about service and volunteerism. In January, 
we did something that most programs would not even think of 
doing. We shut down for a week. We took the entire cast and 
most of the crew down to Biloxi, Mississippi, to work with 
Hands On Gulf Coast. We built three houses while we were there 
during that week, three houses in different stages of 
development.
    It was an extraordinary experience for us. We also brought 
with us camera crews and shot a documentary style piece that we 
showed during one of our regular air times on Valentine's day 
in February.
    What was clear during this time in the gulf coast, first of 
all, as I am sure you are all aware, there is still such an 
extraordinary need down there. People are living in trailers. 
Their houses are not being fixed. Their houses are not being 
rebuilt. Without organizations like Hands On Network, for 
instance, the three houses that we worked on would not have 
work done on them now. The one house that I worked on, the 
drywall house, a woman by the name of Gerta, in her 80s, a 
German woman, has been living in her FEMA trailer for a year 
and a half. This month she will be moving into that house. 
Without Hands On Network, I don't think she would be doing 
that. In fact, I am quite certain she wouldn't be doing that.
    The other part of our program now has been 11 more events 
that will occur on a little bit of a smaller basis in the sense 
that not all of our actors will be going down. Only three or 
four will be going down. But, in this case, fans can go to our 
Web site, findyourlight.net, and volunteer to work alongside of 
our actors in these events. We have about 100 fans that can 
work--that we are allowing to work for each event. We will also 
have a waiting list throughout the entire year of 100 to 150 
people beyond that. So what started as a small idea from our 
executive producer, 80 people went down in January. Hundreds of 
people have gone down since then. We have already done two 
events, one in Atlanta and one in Virginia. And we have 
hundreds of more people that are signed up to go out throughout 
the rest of the year, literally thousands of people.
    And many of those people have already--I have talked to 
many of those people already, and many of them are volunteering 
for other events. It is very clear to me that people want to do 
something. The world is a crazy place right now. We watch our 
television sets. We feel like there is not a whole lot that we 
can do. But people do want to do something. They want to do 
something in a very physical way where they are helping out in 
some sense.
    Our program, in some crazy way, has now become a year-long 
commercial for volunteerism. In fact, back when we started in 
radio in 1937, the program would begin with that crazy soap 
opera music that we all know, da da da and then you would hear 
the voice of Arthur Peterson, who played the character of 
Reverend Rutledge in those early years. And he would say these 
words: There is a destiny that makes us brothers. None goes his 
way alone. All that we send into the lives of others comes back 
into our own.
    We have now incorporated those words, it is a poem by Edwin 
Markham, into our opening again. If you go to our show now and 
watch our opening, you will see a montage of hands coming 
together and holding on to each other. You will hear those 
words. And at the at the end of every show, we also have a 
small piece that guides viewers to the hands on the Web site 
and to our findyourlight.net Web site.
    Again, a small idea has now touched thousands of people who 
are touching thousands of other people.
    [The statement of Mr. Newman follows:]

        Prepared Statement of Robert Newman, Actor and Volunteer

    Over the years I have volunteered for a variety of things through 
my church; working with teens as a youth leader for 6 years; doing 
``shortterm missions'' work; and even spending 10 days working with 
children in Cochabamba, Bolivia. I've also given a great deal of time 
to various charities over the years to help raise funds. But perhaps my 
most profound volunteer experience was during a recent trip to Biloxi, 
MS. As part of Guiding Light's 70th anniversary, our entire cast and 
crew made the journey from New York in January to work alongside 
volunteers at Hands On Gulf Coast.
    Hands On Gulf Coast has been housing volunteers since September 
2005 as part of a disaster relief project of Hands On Network. More 
than 5,000 volunteers have gutted homes, installed playgrounds, 
refurbished schools, and touched lives. Their work has been critical to 
the recovery efforts and they have been recognized as the premier 
provider of volunteer labor for the area.
    For a week, we were just like thousands of other individuals who 
came through the doors of Hands On--eager to invest some sweat equity 
to help our fellow Americans in a time of critical need. Upon first 
sight, the scale of the damage was incomparable, but the magnitude of 
the desire that the Hands On longer term volunteers displayed was 
profound and inspiring. Many young people had walked away from college, 
their families, and their lives to be a part of the recovery. 
Sacrificing daily comforts to aid a region still healing from Hurricane 
Katrina. They spoke of their willingness to help as more than just 
volunteering. This was their civic duty. One young volunteer, Luc 
Lamarache, said to me, ``I just can't imagine anything else I could be 
doing right now that would be this important.''
    Like many people, the Guiding Light team was anxious about what 
they were getting into by volunteering for this experience. They posed 
common questions about how they would fit in, get involved, and make a 
meaningful contribution. We didn't really have construction experience, 
yet here we were to work on reconstructing homes for
    Biloxi residents. Our fears were allayed almost immediately after 
arriving on site. We were divided into smaller groups and placed in the 
hands of capable Volunteer Leaders who showed us what to do lending a 
helping hand when needed. Within a very short time, we were well 
taught, empowered, equipped and ready to engage.
    I personally spoke with many residents, young and old. It quickly 
became clear to me that without Hands On and other disaster relief 
organizations to fill the void there is little hope. That fact 
crystallized for me as I spoke with an elderly resident in Biloxi 
called Gerda. In her young life she had fled Europe because of the 
oppression of the Nazi's and made her home in East Biloxi. In the 
months following Hurricane Katrina, she came to believe in her heart 
that God had forgotten her. Stuck in her FEMA trailer with scarce 
resources to start rebuilding on her own, she had lost hope. Since 
volunteers from Hands On reached out to her she has been overwhelmed by 
the tremendous outpouring of support. Her ``angels,'' as she 
affectionately calls them, spend hours every day repairing her home. 
Guiding Light played a part in rebuilding her home. I personally worked 
in her home with my group. Over the course of our week there, we 
insulated and sheet rocked the entire house. Later this month she will 
be moving back into her home--something that we are so proud to have 
been a part of--restoring hope by renewing a sense of a future where 
life can still get better.
    When the Valentine's Day episode of Guiding Light aired across the 
country telling people the story of our week in Biloxi, we touched 
people everywhere by shedding light on the immense need that continues 
in the Gulf Coast. To our fans, we demonstrated how volunteering was 
not something for the young, for the skilled, or the experienced--it 
was something that we could all be a part of. We helped people to 
overcome their fears. Over and over again I've been told by people who 
saw the show ``hey, I can do that!'' Volunteering became real to our 
audience and the overwhelming response since then has been proof that 
when people understand how much of a difference they can make, they are 
compelled to join.
    Every month during 2007, Guiding Light will continue to work with 
Hands On Network affiliates inviting fans to serve alongside us on a 
variety of different projects. We have a growing waiting list of 
thousands of people who now want to share in the volunteer experience 
they witnessed. Hands On helped to show our fans that if a group as 
diverse as our cast could make it work, then there is a place for 
everyone to get involved.
    Volunteer service has never had a more important role in our 
society. We are at a time in this country when people are craving some 
kind of stability in a world that is increasingly spinning out of 
control. People want to make a difference, but many of the world's 
problems, from the war in Iraq to the aftermath of Katrina seem so 
colossal that many wonder if there is anything at all they can do that 
will actually have an impact. People want to do something, somewhere 
that will give them even the smallest sense that they have made a 
difference. But where and how?
    What I have experienced in working with Hands On is that they are 
making volunteering more accessible than ever--creating entry points 
and facilitating opportunities to engage in an experience that can 
utilize anyone's talents. When volunteering becomes a common experience 
across the nation, there is a profound transformation that takes place, 
not only in the act of giving, but in transforming the volunteer. That 
unique shared experience is key.
    That's what volunteering needs to become, an automated response, 
not only to disasters on the magnitude of Hurricane Katrina, but in 
every day life. Hands On has become a vital conduit for change in 
communities across the country, giving ordinary citizens profound and 
new opportunities to serve. In Biloxi we felt the pulse of the 
community, and witnessed the difference that we made. What is 
particularly encouraging with Hands On Network is that we can continue 
to serve in cities around the country.
    My family will be returning to Biloxi in June to continue to 
support the rebuilding efforts. My wife along with my teenage son and 
daughter watched the Biloxi episode with me. They said, ``Hey, I can do 
that!'' and are now compelled to return with me--proof that 
volunteering can become second nature, a responsibility of all our 
fellow citizens to meet the needs in our communities.
    In the early radio days of Guiding Light, the show began with the 
following poem by Edwin Markham, read by the character of Reverend 
Rutledge. We have now, once again, added this poem to the opening of 
our show. We feel it is as relevant today as it was then.
    There is a destiny that makes us brothers. None goes his way alone. 
All that we send into the lives of others Comes back into our own.
                                 ______
                                 
    Chairwoman McCarthy. And I thank you for that.
    Ms. Stroud.

 STATEMENT OF SUSAN E. STROUD, EXECUTIVE DIRECTOR, INNOVATIONS 
                     IN CIVIC PARTICIPATION

    Ms. Stroud. Good morning. Representative McCarthy and 
members of the subcommittee. I am Susan Stroud, founder and 
executive director of Innovations in Civic Participation, a 
nonprofit organization dedicated to promoting national youth 
service both in the United States and abroad.
    I have spent the past 25 years helping to establish 
organizations and programs that engage large numbers of young 
people in service and service learning.
    I was very fortunate in 1993 to join the late Eli Segal and 
his team at the White House Office of National Service. Our 
team was charged with creating the Corporation for National and 
Community Service and AmeriCorps.
    At the corporation, I was the first director of Learn and 
Serve America.
    I applaud the Chair and the members of the subcommittee for 
putting the renewing of national and community service so high 
on your agenda. The issue is critically important for all 
Americans but especially for young people whose skills and 
habits as lifelong active citizens are being formed.
    I would like to begin by providing some general 
observations about scaling up the next generation of service 
programs.
    First, there should be a continuum of service that begins 
in elementary school and continues through one's work, life and 
retirement. The commitment to serve one's community is learned, 
not inherited, and the skills and habits of citizenship cannot 
be learned entirely from a textbook. People from all 
backgrounds, young and old, need opportunities to practice 
being active and engaged citizens throughout their lifetimes.
    Second, service is a strategy to meet critical needs. We 
all benefit from full-time stipended service which improves 
education, the environment, public safety and human centers.
    Third, service prevents risky behavior, reengages at-risk 
youth and provides a way for young people to realize their 
potential to create positive change in their communities.
    Within this context, I want to discuss very briefly one 
specific proposal that ICP has been working on, a Summer of 
Service.
    This initiative fills a gap in the continuum of service by 
providing opportunities for middle school students in the 
summer months, a population for whom very few service 
opportunities currently exist. Children in middle school are 
too young to work, and they have aged out of most programs that 
are available to younger children. That means they are 
unsupervised much of the time during the summer. There is a 
need to fill this gap in order to prevent risky behavior at 
this critical transition to adolescence. Research also 
indicates that the transition between middle school and high 
school is when we see a big rise in the dropout rate. 
Connecting Summer of Service programs to service learning 
programs in schools during the academic year through Learn and 
Serve America would help create an academic and service bridge 
for these young people, especially the most vulnerable.
    Developing a universally available Summer of Service 
program to enable all young people to participate in service as 
a rite of passage would be possible, even in a tight economy, 
if the system were built on the existing infrastructure of 
service programs. Summer of Service would also be an 
opportunity for intergenerational service programs that would 
bring together seniors, young teens, older students in high 
schools and universities and AmeriCorps members to work 
together. SeniorCorps has committed to working with AmeriCorps 
in Learn and Serve America to make sure this happens.
    As you proceed, I urge you to consider incorporating Summer 
of Service into your bill and to sign on as cosponsors of the 
Summer of Service bills that Representative DeLauro and 
Senators Dodd and Cochran introduced this week in the House and 
Senate. In looking to the next generation of service, there is 
a gap between young people's desire to change their communities 
through service and the opportunities for civic participation 
that are available to them. Hurricanes Katrina and Rita showed 
the commitment of young people to their country as many rose to 
the challenge and responded in large numbers to assist with 
rebuilding the gulf coast.
    In addition to responding to natural disasters, there are 
many other critical needs that can be addressed through 
service. We need to strengthen and expand the existing 
framework of national service programs, such as Learn and 
Serve, SeniorCorps and AmeriCorps, as well as incorporate new 
scalable ideas.
    A few examples of such ideas include a clean energy corps 
to fight global warming, a health corps to address unmet 
medical needs of 56 million Americans, an AmeriCorps CCC 
program to address the backlog of infrastructure and 
environmental needs and help employ disconnected young people, 
a new citizen corps for recent immigrants, a disaster readiness 
response and recovery corps. Pathways to Teaching is another 
proposal ICP has developed. We propose a program that would tap 
into the 500,000 current and past AmeriCorps members as a 
potential pool of future teachers willing to serve in the 
country's most challenged schools.
    All of these ideas are possible, and the committee would 
have many partners willing to help develop them in greater 
detail. The committee is right to take action to renew the 
spirit of national and community service in America. As John 
Gardner said, ``Freedom and responsibility, liberty and duty, 
that is the deal.''
    Thank you for the opportunity to testify this morning, and 
I welcome questions.
    [The statement of Ms. Stroud follows:]

Prepared Statement of Susan Stroud, Executive Director, Innovations in 
                          Civic Participation

Introduction
    Good morning. Rep. McCarthy, Rep. Platts and members of the 
subcommittee--I am Susan Stroud, founder and Executive Director of 
Innovations in Civic Participation, a nonprofit organization dedicated 
to promoting national service both in the US and abroad. ICP incubates 
ideas that will help bring national and community service to scale in 
the US and other countries. Madame Chair, I request permission to 
submit written testimony.
    I have spent the past twenty-five years setting up organizations 
and programs that engage large numbers of young people in service--as 
the founding director of the Swearer Center for Public Service at Brown 
University and of Campus Compact, a national coalition of over 1,000 
university and college presidents committed to civic engagement and 
service-learning. I was incredibly fortunate in 1993 to join the late 
Eli Segal and others at the White House Office of National Service and 
charged with creating the Corporation for National and Community 
Service and AmeriCorps. At the Corporation for National Service, I was 
the first director of Learn and Serve America.
    I applaud the chair and the members of the subcommittee for putting 
``Renewing the Spirit of National and Community Service'' so high on 
your agenda. The issue is critically important--for all Americans, but 
especially for young people, whose skills and habits as life-long 
active citizens are being formed.
Context for new ideas for service
    Before speaking about one specific proposal for Renewing the Spirit 
of National Service that ICP has developed--Summer of Service--I would 
like to provide some context for the value of scaling up the next 
generation of service programs:
    1. First, there should be a continuum of service that begins in 
elementary school and continues through one's work life and retirement. 
The commitment to serve one's community is learned, not inherited. To 
be an effective citizen, one needs to practice being a citizen. It is 
not something one can learn entirely from a textbook. So people from 
all backgrounds, young and old, need opportunities to practice being 
active and engaged citizens.
    2. Second, service is strategy to meet critical national needs. 
Service gets things done. Every policymaker should ask how service can 
address unmet needs and build it into a public policy strategy. Service 
isn't nice, it's necessary. We all benefit from full-time, stipended 
service, which improves education, the environment, public safety and 
the delivery of human services.
    3. Third, service is a strategy for engaging young people in 
productive, skill-building activities. It prevents risky behavior, re-
engages at-risk youth, and provides a way for young people to make 
healthy decisions and see their potential to create positive change for 
their community and country.
Summer of Service
    Within this context, Summer of Service is an important initiative 
to fill a gap in the continuum of service initiatives, because it will 
provide opportunities for middle school students--a population for whom 
very few service opportunities exist. ICP's report on the potential for 
a ``Summer of Service'' highlights the need to focus on creating 
service opportunities for middle school students for the following 
reasons:
    1. Children in middle school are too young to work and too old for 
many of the programs available to younger children. Summer school is 
often only for those who are failing, and working families may be hard-
pressed to pay for adult supervision of their young teenagers. 
AmeriCorps members must be 18 and only limited funding is available for 
community-based organizations to run programs for younger youth. There 
is a need to fill this gap in order to prevent risky behavior at this 
critical transition to adolescence.
    2. Research indicates that the transition between middle school and 
high school is when we see a big rise in the drop-out rate. Summer of 
Service programs would keep children making that transition connected 
and help deter dropping out. Connecting Summer of Service programs with 
service-learning programs in schools during the academic year through 
Learn and Serve America would help create an academic and service 
bridge for these young people.
    3. Despite the pivotal nature of the early teen years, youth-
focused investments (other than education), tend to emphasize problems, 
not the potential of these young people. We spend money to tell teens 
to stay away from drugs, to keep offenders off the streets, and to 
discourage teen pregnancy. Yet research--and common sense--tells us 
that giving young people something to say 'yes' to is an essential part 
of teaching them to say 'no.'
    A universally available Summer of Service program would fill this 
policy gap by helping communities create positive alternatives for 
young teens. Developing a national system to enable all young people to 
participate in service as a 'rite of passage' would be possible, even 
in a tight economy, if the system were built on the existing 
infrastructure of service programs. Summer of Service would be an 
opportunity for intergenerational service programs that would bring 
together seniors, young teens, older students in high schools and 
universities, and AmeriCorps members to work together. Senior Corps has 
committed to working with AmeriCorps and Learn and Serve America to 
make this happen.
    As you proceed, I urge you to consider incorporating Summer of 
Service into your bill. The DeLauro and Dodd Summer of Service bills 
will be introduced shortly, and I urge you to contact Representative 
DeLauro and Senator Dodd to sign on as co-sponsors.
    An example of the kind of program that the Summer of Service Bill 
would support is the Breakthrough Collaborative, which currently 
operates in 15 states, including New York, Pennsylvania, New Hampshire, 
Ohio, and Texas, and the District of Columbia. The program engages over 
700 talented high school and college students in teaching more than 
2,200 middle school students with limited educational opportunities 
every summer. The program consists of summer sessions in which the 
middle school students take classes in core academic subjects and work 
on community service projects to help them develop an awareness of the 
larger communities in which they live.
Expanding service opportunities
    In looking to the next generation of service, there is a gap 
between young people's desire to change their communities through 
service and the opportunities for civic participation available to 
them. We need to strengthen and expand the existing framework for 
national service and programs such as Learn and Serve America, Senior 
Corps and AmeriCorps, as well as incorporate new, scaleable ideas.
    Hurricanes Katrina and Rita showed the commitment of young people 
to their country, as many rose to the challenge and responded in large 
numbers to assist with rebuilding the Gulf Coast. In addition to 
responding to natural disasters, there are many other critical needs 
they can address, such as:
    <bullet> helping to upgrade our infrastructure,
    <bullet> reducing the backlog of projects that need to be carried 
out on our public lands--a backlog that now runs into the billions of 
dollars,
    <bullet> providing energy conservation services to millions of low-
income households eligible for the Weatherization Assistance Program,
    <bullet> addressing the education needs of the half million high 
school students who annually drop out before graduation, and
    <bullet> helping to deliver health care to the approximately 56 
million Americans who need better access to services.
    To address these national needs, several key program ideas have 
been developed by ICP, by members of the Voices for National Service 
Coalition and by other organizations that I have described in detail in 
my written testimony. I will only mention a few here:
    1. Pathways to Teaching is a proposal ICP has developed that would 
tap into the 500,000 current and past AmeriCorps members as a potential 
pool of future teachers willing to serve in the country's most 
challenged schools.
    2. Clean Energy Corps is a proposal for a program that would 
respond to the new national emergency of global warming. It would give 
young people and under-employed people the opportunity to serve their 
country by working in the field of renewable energy and energy 
conservation.
    3. Other specific proposals include creating an Education Corps; a 
Health Corps; an AmeriCorps*CCC program; a New Citizens Corps for 
recent immigrants; and a Disaster Readiness, Response and Recovery 
Corps, among others. These programs would all help fill in the 
continuum of service experiences and engage a diverse and inclusive 
population of Americans in gaining a sense of belonging to an effort 
greater than themselves, while at the same time, contributing to the 
improvement of their communities by ``getting things done'' and 
renewing the spirit of service in America.
Close
    All of these ideas are possible, and the committee would have many 
partners willing to help develop them in greater detail. We can, and 
should, provide every young American with the opportunity to serve his 
or her community and country. Our government has asked little of most 
of its citizens. We should all be asked to contribute to our country's 
security and the health of its communities. Even very young people can 
make important contributions and are eager to do so if provided with 
the opportunity. The committee is right to take action to renew the 
spirit of national and community service. As John Gardner said, 
``Freedom and responsibility, liberty and duty, that's the deal.''
    Thank you again for the opportunity to testify this morning. I will 
be happy to answer any questions you might have.
                                 ______
                                 

     STATEMENT OF ROBERT PURIFICO, PRESIDENT, DESTINATION 
                          IMAGINATION

    Mr. Purifico. Madam Chairwoman, Congressman Davis and 
members of the subcommittee, thank you for the opportunity to 
appear before you today. As a child advocate and lifelong 
educator and volunteer, it is my hope that this hearing will 
help renew the spirit of service, encourage the desire of 
volunteers to continue their efforts. I am here today on behalf 
of Destination Imagination Inc., an organization that for 
nearly a quarter of a century has utilized volunteers to help 
children grow and make a difference in their communities. I can 
unequivocally say that, without the efforts of our tens of 
thousands of volunteers, we would have been incapable of 
growing into the worldwide organization that we are today.
    Over time our organization has operated in all 50 States 
and over 40 countries providing children with the opportunity 
to learn how to work together as a team and to solve real life 
problems. Currently, we do not have affiliates in all 50 States 
because, as we all know, volunteers come and go. Indeed, this 
is one of the reasons I am eager to testify before you today.
    Plainly, the recruitment and retention of volunteers is the 
essential ingredient to life-term success for organizations 
such as Destination Imagination.
    My written testimony provides further details about our 
numerous programs. However, today I would like to quickly 
highlight two of our programs.
    The flag ship Destination Imagination program is the oldest 
and largest of the programs. DI is a community-based school-
friendly program where young people take what they know and 
what they do well and learn to apply it to solve challenges.
    The program fosters creative and critical thinking, 
develops teamwork, collaboration and leadership skills while 
fostering self-respect for oneself and for team members. Teams 
of up to seven members participate in the DI challenges in 
schools and community groups or at churches and synagogues. 
Over the course of 2 to 3 months they will work together in the 
development of a given challenge. Each challenge might be in 
areas such as technical, mechanical, improvisational, science, 
theater arts, structural or architectural design. The teams are 
assisted by a team manager volunteer who assists them as a 
Socratic facilitator. Upon completion of the solution to the 
challenge, the teams may participate in a local tournament or 
will progress on to a regional and affiliate level tournament. 
We are currently in the final stages of affiliate tournaments 
throughout the world.
    As a matter of fact, this past weekend saw Congressman Mike 
Ross, whose wife serves as a DI volunteer, at the 25th annual 
affiliate tournament in the great State of Arkansas.
    The year-long program culminates in an annual global finals 
event which gathers nearly 18,000 participants at one event, 
half of whom are all volunteers.
    We are very proud of our accomplishment with this program.
    However, our appreciation of the importance of service 
helped create a recent addition to our community of programs.
    In Project Outreach, which was developed by a group of 
alumni of the flagship program, middle and high school students 
work to solve real life problems in their communities. Since 
its inception in 1995, Project Outreach teams have developed 
and solved numerous community challenges, including 
implementing school clean-up drives and environmental education 
programs, raising funds for a shelter for battered women, 
assisting in the building of low-income housing.
    While I would like to expand on our programs more in this 
setting, it is more important to testify that, central to the 
success of Destination Imagination Inc. Is a corps of thousands 
of dedicated volunteers, who on a yearly basis enable this 
organization to exist.
    In any given year, our organization will use approximately 
30,000 volunteers. Our volunteers come from a variety of 
backgrounds and interests, including educators, family members, 
youth in the community, corporate volunteers, members of 
community civic organizations and from professional 
fraternities associated with colleges and universities. The 
volunteers serve as affiliate and regional directors, team 
managers and appraisers, challenge developers, international 
challenge masters and affiliate training directors. They are 
the heart and soul of the organization. And each year, they 
return time and time again to offer their services.
    In fact, we find that many of our volunteers continue to 
serve the organization long after their children are no longer 
part of the program.
    However, as in the case with many volunteer-dependent 
organizations, we never have a shortage of kids who want to 
participate in our programs. Our challenge is to continue to 
attract adult volunteers.
    I commend the subcommittee for the work it will do this 
year in support of the national service programs and encourage 
the private and nonprofit sectors to keep an eye on the goal of 
preparing the next generation for the many challenges that lay 
ahead.
    And finally, we need to always remember the words of a 
meaningful age-old saying that states: A thousand years from 
now, it will make little difference what kind of house we lived 
in, what kind of car we drove or how much money we had in the 
bank. What will be important is that we individually and 
collectively have made a difference in the life of but one 
child.
    I thank you for the opportunity to testify and look forward 
to working with the subcommittee to finding new ways to 
continue and renew the spirit of service in our country. Thank 
you.
    [The statement of Mr. Purifico follows:]

   Prepared Statement of Robert T. Purifico, President and Executive 
                Director, Destination ImagiNation, Inc.

    Madam Chairwoman, Congressman Platts, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to talk about the importance of national and community service. As a 
child advocate and someone who served as a volunteer for many years, it 
is my hope that my testimony will help renew the spirit of service and 
encourage the desire of volunteers to continue their efforts towards 
enriching the lives of children, particularly in the quest to learn and 
master the skills associated with creativity and problem solving. Most 
importantly, I hope this hearing will help encourage new volunteers to 
develop a passion for community service.
    I am here today on behalf of Destination ImagiNation, Inc, an 
organization that for nearly a quarter of a century has utilized 
volunteers throughout the world to help children grow and truly make a 
difference in their communities. I can unequivocally say that without 
the efforts of our tens of thousands of volunteers, we would have been 
incapable of growing into the world's leading non-profit corporation 
providing a community of creative problem solving programs for youth 
and adults of all ages.
    Destination ImagiNation, Inc, which is headquartered in Congressman 
Rob Andrews' district in Glassboro, New Jersey, is the product of a 
twenty-five year path that has dedicated itself to helping all those 
who participate in its programs understand the importance of teamwork, 
creativity and problem solving as part of a life-long ``learning 
process.'' The result is that each year, thousands of participants from 
age 4 to adult throughout North and South America, Europe, Asia and 
even South Africa become excitedly involved in the power of creativity 
and problem solving in an effort to ultimately help make our world a 
better place in which to live.
    Destination ImagiNation, Inc. is a Community of several different 
programs all of which focus on the creative problem solving process. 
Over the past quarter century, our programs have been conducted by 
volunteer Affiliates, in schools, community organizations, churches and 
synagogues in all fifty states and in over forty countries.
    The Flagship Destination ImagiNation program is the oldest and 
largest of the Programs. ``DI''(r), as it is fondly regarded throughout 
the world, is a community-based, school-friendly program where young 
people take what they know and what they do well and learn to apply it 
to solve Challenges. DI is not so much a program but rather a process 
of learning HOW to be creative so that its participants will develop 
life-long problem-solving skills that carry over into everyday life. 
The goals of the program are intended to:
    <bullet> foster creative and critical thinking
    <bullet> learn and apply Creative Problem Solving methods and tools
    <bullet> promote the recognition, use and development of many and 
varied strengths and talents
    <bullet> develop teamwork, collaboration, and leadership skills 
while developing self respect for oneself and the team members with 
whom they work
    <bullet> nurture research and inquiry skills, involving both 
creative exploration and attention to detail
    <bullet> encourage competence in, enthusiasm for, and commitment to 
real-life problem solving.
    Our primary goal is for participants to learn these skills while 
solving the Challenge selected by the team. Teams of up to seven 
members work together for two to three months in the development of a 
given DI Challenge in areas such as; Technical/Mechanical, 
Improvisation, Science, Theater Arts, and Structural/Architectural 
Design.
    The teams are aided by a Team Manager volunteer, who assists them 
as a Socratic facilitator. Upon completion of the solution to the 
Challenge, the teams may participate in a local tournament or will 
progress on to regional and state tournaments. We are currently in the 
final stages of our Affiliate Tournaments throughout the world. As a 
matter of fact, this past weekend I had the pleasure of seeing 
Congressman Mike Ross at the 25th Annual Affiliate Tournament in 
Arkansas. This coming Saturday, I will attend the Maryland 25th 
anniversary Tournament in Congressman Sarbanes' district.
    During the course of the program year, depending upon the size and 
level of participation within the fifty-six international Affiliates, 
over three hundred local, regional and state-wide Affiliate Tournaments 
will occur culminating in an annual Global Finals event which gathers 
nearly eighteen thousand participants (half of those volunteers) to the 
University of Tennessee in Knoxville. Over the history of the 
organization, the Flagship program has touched millions of children in 
five continents, all of whom recognize the contributions of the 
volunteers who enabled them to take their respective journey into the 
world of creative problem solving.
    This recognition and appreciation of the importance of service 
helped create a recent addition to the Destination ImagiNation Inc. 
Community of Programs. Project Outreach(r) was developed by a group of 
Alumni of the Flagship program to utilize the creative and critical 
thinking skills they had learned in the Flagship program and apply them 
to real life situations. Simply, Project Outreach became a creative 
learning experience with a service outcome that combined the energy of 
youth, the educational value of creative problem solving and the 
motivation of peer support and recognition into a service learning 
program. Middle and high school students participate in this program 
and are facilitated by volunteers who serve as Team Advisors, 
Tournament Managers, or Tournament Volunteers. Since its inception in 
1995, Project Outreach teams have developed and solved numerous 
community challenges such as:
    <bullet> Collecting thousands of items of clothing for the homeless
    <bullet> Implementing school clean-up drives and environmental 
education programs
    <bullet> Presenting programs instructing children about the dangers 
of speaking to strangers
    <bullet> Developing a nature walk
    <bullet> Building a handicapped--accessible playground
    <bullet> Collecting truckloads of paper for recycling
    <bullet> Raising funds for a shelter for battered women
    <bullet> Designing exercise to build self-esteem
    <bullet> Assisting in the building of low-income housing
    As we continue a challenging journey into the future, the ability 
to utilize the skills associated with problem solving in a community 
setting will be paramount to a successful and meaningful future. Adult 
volunteers interested in providing a foundation for that success to 
occur are an important ingredient in helping the youth of our country 
and the world understand that there is optimism for the future if they 
in fact are an active part of the process.
    Of particular interest to this Committee is our technology-based 
program called Tech Effects(r) which combines basic technology 
education and teamwork with creative problem solving. The Tech Effects 
program links directly to Science, Technology, Engineering, and Math 
(S.T.E.M) education standards and presents S.T.E.M. to participants in 
a fun and challenging format in a six to eight week program built 
around a ``Tech Focus''--a specific area of technology. As teams of 
five to seven kids explore the ``Tech Focus'' they ultimately build a 
device that applies that specific type of technology in solving a task 
in the form of a challenge solution. The solution is subsequently 
presented in a classroom setting or entered into a competitive format 
in an after school program, summer program or Tech Rally sponsored by 
Destination ImagiNation Inc. Affiliates or other groups such as the 
Boys and Girls Clubs. Tech Effects offers kids the opportunity to 
develop teamwork, collaboration and leadership skills while encouraging 
a competence in, enthusiasm for and a commitment to real-life problem 
solving through the use of technology-based activities that again find 
their way into the world of creativity and problem solving.
    From our Rising Stars!(r) program that works with four to seven 
year olds, to our DIcor program for adults, the Destination ImagiNation 
Inc. Community of Programs continues the mission of the organization in 
helping develop the problem solving skills needed to be successful. A 
more thorough description of each of our Programs follows this 
testimony.
    Generic to the success of Destination ImagiNation Inc. is a core of 
thousands of dedicated volunteers who, on a yearly basis, enable the 
organization to exist. As a former volunteer of eighteen years, I 
understand that volunteers are the core to our accomplishments.
    In any given year, our organization will use approximately thirty 
thousand volunteers. Throughout the history of the organization, it has 
been blessed with concerned adults who genuinely care about the future 
of our youth and their ultimate ability to problem solve in a 
challenging and demanding future. Our volunteers come from a wide 
variety of backgrounds and interests including educators, family 
members of participants, youth in the community, corporate volunteers, 
members of community civic organizations such as Rotary, Lions, and 
Optimist Clubs, and from professional fraternities associated with 
colleges and universities. Simply put, they are moms, dads, aunts, 
uncles, grandmas, grandpas, corporate leaders, the spouse of a member 
of Congress, the Alumni of the organization, and anyone else who 
understands the importance of instilling the ability to problem solve 
in the youth of today in an effort to secure our tomorrow.
    Our volunteers are our Affiliate and Regional Directors, our Team 
Managers and Appraisers, our Challenge DIvelopers, our International 
Challenge Masters, and our
    Affiliate Training Directors. In essence, they are the heart and 
soul of the organization and each year they return time and time again 
to offer their services. In fact, we find that many of our volunteers 
continue to serve the organization long after their children are no 
longer a part of the program.
    As an organization that prides itself and its existence on 
volunteers, we seek on a yearly basis to expose awareness of the 
organization to potentially new volunteers. We do this by conducting 
awareness sessions for community public service organizations, by 
explaining to our adult DIcor corporate consulting participants the 
programming that we provide to children in hopes of getting them 
involved, and by disseminating promotional literature to all support 
groups and organizations interested in working with kids.
    Interestingly, one of our best sources of volunteers is attendance 
at annual Tournaments. Interested spectators get to see first hand what 
kids are doing and even have the opportunity to speak with them about 
the process associated their creative problem solving abilities. We 
have been successful in attracting the interest of local media in our 
Tournaments and as the word successfully spreads, we obtain additional 
volunteers.
    Finally, we rely on our corporate sponsors who generously not only 
support the organization with financial gifts, but also offer the 
awareness of the organization to their employees who subsequently find 
interest in supporting what we do with children. We have been grateful 
for the generous support of many corporate entities and foundations 
over the years. Our current list of supporters includes the National 
Dairy Council, 3M, Velcro USA, Inc, the Association of Equipment 
Manufacturers, the Staples Foundation and Sci Fi, which is part of NBC 
Universal. A complete list of current and former supporters follows 
this testimony.
    As is the case with many volunteer dependent organizations, we 
never have a shortage of kids who want to participate in our programs. 
Our challenge has become one revolving around ways to continue to 
attract adult volunteers. Although we continually utilize the efforts 
detailed above to attract volunteers to our organization, we most 
readily admit that it is a continual challenge to secure them.
    As Destination ImagiNation, Inc. moves forward into its next 
quarter century, we need to continue our effort towards finding new 
volunteers to perpetuate the vision and mission of the organization. We 
need to continue to attract volunteers through the outreach in local 
communities.
    If innovation is truly a valued notion in our society, then 
corporate America must continue to support the types of programs 
offered by organizations such Destination ImagiNation, Inc. It is only 
through this kind of partnership that we will develop the next 
generation of problem solvers who will in fact know and understand HOW 
to innovate. corporate America should continue to embrace and 
financially support through volunteerism programs that develop the 
skills needed for the future.
    We need to also continue our work in the private sector to increase 
the understanding of ways in which corporate employees can serve the 
non-profit sector as Trustees so they can lend their knowledge, 
expertise and generosity in the continuation of the mission and vision 
of the non-profit.
    Additionally, non-profit organizations need to do a better job 
coordinating with each other to explore ways in which we can combine 
our talents and resources to better serve the youth of America.
    The future of this country and the world of which it is a part, is 
an optimistic one that demands its youth understand how to generate 
ideas, focus on them and then ultimately solve the complex challenges 
they will face.
    And finally, we need to always remember the words of a meaningful 
age-old saying that states: ``a thousand years from now it will make 
little difference what kind of house we lived in, what kind of car we 
drove or how much money we had in the bank. What will be important is 
that we individually and collectively have made a difference in the 
life of but one child.'' It is through that effort that we will secure 
the future of our country and of our world one child at a time.
    I thank you for the opportunity to testify and look forward to 
working with the Subcommittee in finding new and continuing ways to 
renew the spirit of service in our country.
Former and Current Corporate and Foundations Supporters of Destination 
        ImagiNation
The National Dairy Council
3M
Velcro USA Inc.
Best Buy
Children's Foundation
Philips Consumer Electronics Inc.
MSC, Inc.
Saputo Cheese
Bank of America
NASA
Dollywood
Avid Technology, Inc.
CopyMax
U.S. Space & Rocket Center
Fish & Richardson
Conserve School
American Institute of Foreign Study (AIFS)
National Center for Creativity, Inc.
BrightHouse
Eastman Kodak
Field Trip Factory
Smuckers
Krystal
Staples
Association of Equipment Manufacturers (AEM)
SciFi
Passageways Travel
NXLevel
Scientific American
KidPro
Iowa Egg Council
Chick-fil-A
Sharp Electronics Co.
CyberAlert
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Ms. Brown.

                   STATEMENT OF MARCIA BROWN

    Ms. Brown. Good morning Chairwoman McCarthy and members of 
the committee. I would like to thank you for the opportunity to 
testify. I am here today as a proud veteran of AmeriCorps 
National Service and a current member of AmeriCorps Alums, the 
national network that aims to connect, support and mobilize 
alums to strengthenour communities and our Nation. I am honored 
to be here as one of the 400,000 alums of AmeriCorps National 
Service.
    Ultimately, I hope to convey that we have an enormous 
unrealized opportunity to leverage the significant investment 
we are making in service leaders through AmeriCorps by 
following it with a relatively modest investment in the 
lifetime of service that AmeriCorps inspires.
    I would like to tell you a little bit about my story and 
how I came to be an AmeriCorps member. At the time, I was 
working in sales, and everybody knows that sales people are 
driven by money. And I, too, was driven by that money.
    But I had a client that needed a rocket scientist, and I 
found one. So she came in, and she went to the assignment. Two 
weeks later, she comes in, and she says, Ms. Brown, I am not 
going to be able to work there any more.
    And I was like, oh, sweety, what happened?
    She says, Well, I am just not happy.
    Silence on my end. I am thinking to myself, what in the 
world does happy have to do it with it? You are making a 
truckload of money. So what? Anyway, on the way home, I am 
thinking to myself, I am so upset. Why am I so upset? I 
couldn't figure out if I was upset at her or upset at myself. 
But ultimately, I realized that I was upset with me because it 
had never occurred to me about being happy or fulfilled in a 
job. I only had ever worked for money.
    About the same time, I began to read about the children's 
test scores in Atlanta and that they were failing in reading 
and math and thought it would be a good time to do something 
besides shake my head every day and say, mm-mm-mm, the kids 
can't read. So I went on the Web site and ended up on Hands on 
Atlanta's Web site and found the AmeriCorps program.
    And that is how I began my term of service.
    I was lucky enough to be--2004/2005 I served. I am sorry.
    I was the volunteer coordinator for Centennial Elementary 
School. And what that basically meant was that I was in charge 
of bringing resources, whether they be corporate, colleges, 
business, churches, into the community into that school 
community specifically to tutor children and mentor programs.
    But I also was able to work with the Salvation Homeless 
Shelter, and I was able to, because of my recruiting 
background, 13 people partnered with the Sheraton Hotel, and 
they got jobs. So one day I was there, and this guy comes up to 
me. And he says, Ms. Brown, you don't remember me; do you?
    I said, no, sweety, what is your name?
    He said, I am Mario. I used to live in the shelter. But I 
don't live there any more.
    And it was like, you know, the music played, and it was 
such a moment for me because at that moment I realized that I 
had the power to change lives.
    So through my AmeriCorps experience and now that I am 
serving--I continue to serve. I am a program manager with Hands 
on Atlanta, and now I manage a team of 27 members and seven of 
the lowest performing schools in Atlanta. And we are able to 
bring in mentor programs from Georgia Tech, Emory, Morehouse 
and Spelman, just to name a few.
    I am a board member of the Vine City neighborhood 
association. And I also sit on the steering committee for the 
Annie E. Casey Foundation For Student Success. And I say these 
things to you because I am but one. But there are, many, many 
alums out there just like me.
    But what we need is we need a way to network. We need to be 
able to tap into everyone's skill sets, bring that thing 
together on a national level.
    We recently had the opportunity to be in New Orleans for 
Katrina. And Ms. Peggy said, without a doubt, without the 
alums, that her house never would have been built.
    My time is running out, so I got to tell you specifically. 
I want to suggest that the committee include in the legislation 
funding for AmeriCorps Alumni Reserve Corps, which would create 
a national database of alums and other skilled individuals who 
are prepared, trained and willing to be deployed to respond to 
national crises, those disasters, and educational.
    This reserve force would leverage the investment our Nation 
has already made in AmeriCorps by tapping the talents of those 
who have served, giving these individuals the chance to 
continue their civic commitment. This hearing happens on the 
eve of an important milestone for AmeriCorps, the enrollment of 
the 500,000th member coming next month. In the next decade, 
sooner rather than later I hope, when we are celebrating the 
millionth AmeriCorps member milestone, I envision a network of 
alums that is continuing to lead the strengthening of 
communities through service that leverages the skills, 
experience and talents of rich and diverse individuals that 
make up the network to build a stronger and more vibrant 
country with a small but intentional focus of resources. And 
with the will and spirit of AmeriCorps alums to serve, we can 
make that vision a reality. I would like to thank you today for 
the opportunity to testify.
    [The statement of Ms. Brown follows:]

   Prepared Statement of Marcia Brown, AmeriCorps Alums and Hands On 
                                Atlanta

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to testify. I am here today as a proud veteran of 
AmeriCorps National Service and a current member of AmeriCorps Alums--
the national network that aims to connect, support and mobilize alums 
to strengthen our communities and our nation. I am honored to be here 
as one of the 400,000 alums of AmeriCorps National Service.
    I am here in part to report on the promising news of the growing 
AmeriCorps Alums network across the nation. I was in New Orleans just 
last month to take part in the third annual national leadership 
conference of AmeriCorps Alums where over a hundred leaders from the 
alumni network--each a brilliant example of a lifetime of service--came 
together to share strategies and resources on the development of alumni 
mobilizing for continued service on a local level. Each is leading the 
effort to keep alums engaged in their local communities. I met Michael 
Agyin from Los Angeles, an African American man who is hearing 
impaired. He is providing leadership for our entire network on 
inclusion and accessibility for people with disabilities. I met Lisa 
Tatum from Dallas, who is leading that community's chapter and has 
self-organized and self-financed alums to travel to the gulf to serve 
the victims of Hurricane Katrina. And I met Traymone Deadwyler, who is 
sharing his skills as a professional with the Red Cross, training other 
Alums on how to respond to disasters.
    At that conference I also had the profound opportunity to take part 
in a recovery service project with 250 alumni and current AmeriCorps 
members serving in the Gulf--lead by AmeriCorps Alums. Months after 
most of the nation's attention and volunteer energy has faded from New 
Orleans and the Gulf Coast, AmeriCorps alumni as well as current 
members--most notably the NCCC--remain in New Orleans providing the 
direct service and, importantly, the leadership necessary for others to 
contribute to the massive effort to rebuild those communities.
    Secondly, I hope to share with you a vision for what could be 
possible if we are successful in transcending our current challenges in 
engaging alumni. That vision is actually within reach: as I will try to 
describe in my statement today, alumni are taking leadership by self-
organizing to continue to serve. A modest but intentional focus of 
resources to support the systems for this action would promise 
tremendous return. We ought to leverage the significant investment we 
are making in service leaders through AmeriCorps by following it with a 
relatively modest investment in the lifetimes of service that 
AmeriCorps inspires.
    Specifically, I want to suggest that the Committee include in the 
legislation funding for an AmeriCorps Alumni Reserve Corps which would 
create a national database of Alums and other skilled individuals who 
are ready and willing to be deployed to respond to national crises--
both those that are sudden, like a hurricane or terrorist attack, and 
those that are longstanding and insidious, like our nation's challenge 
to end the education achievement attack or provide health care to low-
income families. This reserve force would leverage the investment our 
nation has already made in AmeriCorps by tapping the talents of those 
who have served, giving these individuals the chance to continue their 
civic commitment.
Background
    Since the launch of AmeriCorps in 1994, some 400,000 Americans like 
me have completed a term of service and make up the body of AmeriCorps 
Alums. This is a powerful and growing potential resource for 
communities that has gone largely uncultivated and unsupported over the 
past decade.
    In fact, a recent longitudinal study released by the Corporation 
for National and Community Service states that AmeriCorps alumni are 
more likely to volunteer in their communities, pursue public sector 
careers like teaching, and demonstrate more active civic engagement on 
a variety of levels than the average American. Without much intentional 
effort to support it, alums are taking the initiative to continue to 
help our own communities.
    As a result of my service experience in AmeriCorps, I have sought 
out my own opportunities for continued service and civic leadership. I 
sit on the board of the Vine City neighborhood association; I am a 
member of the Annie E Casey Foundation Steering Committee on Student 
Success; and I remain actively involved in the school where I served my 
AmeriCorps year, helping coordinate corporate sponsorship for academic 
and after-school programs. I consider myself lucky to have had the 
access to the resources to learn how to navigate my communities' 
networks and find ways to get engaged.
    AmeriCorps Alums are our communities' emerging citizen leaders--we 
are applying our skills in the workforce, taking advantage of college 
opportunities made possible by the Educational Award, and some are 
continuing to serve our communities in a variety of ways.
    From my own program at Hands On Atlanta, I have teammates who are 
now in law school, training to be doctors, serving as teachers, and 
working in nonprofits like me. Regardless of our career or life path, 
we all share a common bound that is born out of the experience of 
service. It is an experience that has shifted our consciousness about 
community responsibility and embedded an ethic of service.
    However this commitment sometimes lies dormant. The skills and 
experience of alums remains a relatively untapped resource when 
compared to the vast numbers of alums who are out there. The spirit 
that brought these alums to service must be better leveraged and their 
skills and experience put back to work. Alums answered the call to 
service once before, and they will again with a coherent framework that 
applies their leadership and teamwork skills, and reinvigorates the 
spirit of service that inspired them to make the choice to serve not so 
long ago.
    AmeriCorps Alums, first established in 1997, made steps in 
coordinating a national network to support the continued leadership and 
service of its members. The organization intends to leverage the skills 
and experience of alums while supporting their ongoing leadership 
development. One piece of this strategy has been the creation of a 
vibrant online community that enables AmeriCorps alums to organize 
themselves and convene for continued service. The website 
www.lifetimeofservice.org has over 100 chapter homepages that local 
alumni leaders have created to communicate to other alumni about 
further opportunities to engage in service. With modest additional 
resources, AmeriCorps Alums could turn this virtual and community-based 
resource into a powerful national tool to respond to our nation's 
greatest needs.
What AmeriCorps Alums Need
    The post-service period for many is one of transition and change. 
They may be entering into a new career--focusing all of their energies 
on being successful in that new job; they may be going on to college 
where they need to attend to their studies to ensure success; they may 
be starting families; they may be doing several of these things at 
once. Despite these other competing life priorities, many still are 
eager to find ways to remain connected to national service--their 
programs and teammates--and the communities where they served.
    In my experience both as an Alum seeking to remain involved in my 
community and as a leader seeking to support current AmeriCorps members 
preparing for their lifetimes of service, I have identified a few 
things that are critical to success in that regard:
    Continuity from the AmeriCorps Service Term to a Lifetime of 
Service: A powerful alumni network begins with a connection to that 
network as members. Many programs and state commissions do a tremendous 
job with limited or no resources in making this connection for their 
members. States and programs that commit to this type of activity are 
yielding the return on that investment.
    For example, in Georgia, our state service commission convenes all 
the members in the state to participate in two annual gatherings--a 
service kick-off and a graduation event to mark the closing of the 
service year. I routinely invite Hands On Atlanta's AmeriCorps alumni 
to our community-wide service events like MLK Day. These are just a few 
of the touch points that we can make available to alums to stay 
involved, but we shouldn't end there--more sophisticated resources for 
ongoing and sustainable service are also needed.
    Systems and Infrastructure for Engagement: After a year of service, 
there is not always an obvious place to go to connect to other alumni 
in the local community. Only recently has the infrastructure for 
AmeriCorps Alums chapters begun to be cultivated. The good news for 
alumni of our program is that our host organization, Hands On Atlanta, 
provides exactly that type of community resource--a training ground for 
leaders to gain skills and knowledge about community issues; projects 
to take volunteer action to address community issues; and a gathering 
place to connect to others who are leading service activities in the 
community. This type of ``service center'' should be available in every 
community and AmeriCorps Alums should be an integral part.
    A Network to Continue their Development: Once again, we are missing 
an opportunity if the investment that is made in AmeriCorps members is 
not leveraged beyond the AmeriCorps term. We should make a relatively 
modest investment in the ongoing maintenance and ``continuing education 
for citizenship'' that starts but shouldn't end with the training that 
is provided in AmeriCorps. This can happen virtually and in the real 
world--leveraging the growing capabilities of the internet and the vast 
networks of expertise that exist within the national service community.
    Ideas: If we are successful in building a network for national 
service alumni, we will find an invaluable and perpetually growing 
resource bank of human and leadership capital poised to answer the call 
to be mobilized for continued service in communities. Below are some 
specific ideas for how to make this happen that can capitalize on the 
specialized skills, talents, and experience of AmeriCorps Alums.
    An Alumni Reserve Corps: Alumni of AmeriCorps represent a growing 
and capable resource that can meet the workload surge following a 
disaster and provide valuable and experienced service in targeted 
issues of local and national concern, such as failing schools, 
environmental projects, or special needs for out-of-school time. During 
their terms of service, their sponsoring organizations make significant 
investments in the training and preparedness of AmeriCorps members--
specialized training such as American Red Cross Mass Care and Shelter 
Operations, Community Emergency Response Team (CERT), or reading tutor 
training that meets state teaching standards.
    Alumni could be more easily engaged to respond to crises and other 
priority national needs if a database, training and deployment systems 
were developed and if funding were available for living and travel 
expenses for Alumni volunteers ready to be called back into service.
    Infrastructure for Service: One of the key challenges facing the 
successful mobilization of alums in continued service after their 
program year is the local convening and activation infrastructure for 
alums to plug in to for ongoing service opportunities, leadership 
development, and a venue for connecting to other alumni leaders in 
their community. Service centers that provide project opportunities and 
ongoing training and leadership development are important community 
resources for alumni.
    Alums On Campus: Many alums are taking advantage of college 
opportunity as a result of their education award benefit from 
AmeriCorps. At the same time many colleges and universities are 
offering a matching scholarship or other benefits. Indeed, AmeriCorps 
alumni are precisely the profile of candidate admissions officers are 
on the lookout for.
    In exchange for a match of the Ed Award from their schools or 
another form of award augmentation, we can incent Alums to take on 
leadership of service activities on their college campuses. A special 
Ed Award supplement can be tied to continued community service 
activity, recruitment and promotion of national service on campus, and 
other community leadership roles that alums might take on.
    Civic Entrepreneur Fellowship: AmeriCorps alumni represent some of 
the most innovative problem solvers this nation has to offer. Hundreds 
of social entrepreneurs have served through AmeriCorps and gone on to 
apply their skills to starting innovative new programs. The Civic 
Entrepreneur Fellowship would support this trend by providing 2-year 
fellowships and leadership training for alumni who want to develop new 
solutions to pressing community problems.
    Through these efforts, AmeriCorps Alumni can continue to be the 
vanguard for change in communities, large and small, across the nation.
    AmeriCorps Alumni, individuals who have dedicated one year of 
service or more, can continue to be the vanguard for change in 
communities, large and small, across the nation.
    This hearing happens on the eve of an important milestone for 
AmeriCorps--the enrollment of the 500,000th member, coming next month. 
In the next decade--sooner rather than later, I hope--when we are 
celebrating the one millionth AmeriCorps member milestone, I envision a 
network of alums that is continuing to lead the strengthening of 
communities through service and that leverages the skills, experience, 
and talents of the rich and diverse individuals that make up the 
network to build a stronger and more vibrant country. With a small but 
intentional focus of resources and the will and spirit of AmeriCorps 
Alums to serve, we can make that vision a reality.
              appendix: the national service reserve corps
    Alumni of AmeriCorps and other national service programs represent 
a growing and capable resource that can meet the workload surge 
following a disaster and provide valuable and experienced service in 
targeted issues of local and national concern, such as failing schools, 
environmental projects, or special needs for out-of-school time. Alumni 
could be more easily engaged to respond to crises and other priority 
national needs if a database, training and deployment systems were 
developed and if funding were available for living and travel expenses 
for Alumni volunteers ready to be called back into service.
    A Reserve Corps model could deploy AmeriCorps Alums in 30-day 
assignments. These assignments could be renewable twice for up to a 90-
day total deployment. In support of these deployments a national 
training program to maintain readiness and any relevant certification 
of training. Alums could be available to deploy in disaster response or 
during needs for short-term service surges, for example support for 
summer service learning activities for at-risk youth or discrete 
environmental conservation projects.
    We propose creating legislation that support:
    <bullet> Authorizing establishment of a National Service Reserve 
Corps Partnership to establish necessary policies, rules, and 
procedures comprised of representatives from the Corporation for 
National and Community Service, state commissions, alumni groups, 
national service programs and advised by governmental and non-
governmental disaster management and relief organizations. The 
Partnership will develop and communicate to alumni and national service 
programs the eligibility requirements, program expectations, enrollment 
procedures and other necessary Reserve Corps program information;
    <bullet> Authorizing the development of systems needed to make 
Reserve Corps resources available to emergency managers at the local, 
state, and national level and other organizations approved for 
placement of reserve corps members including systems for training, 
typing, deployment and coordination;
    <bullet> Establishing a program and policies for maintaining 
Reserve Corps members' training, certifications, and skills, and 
correspondent readiness and eligibility for deployment;
    <bullet> Establishing a searchable database accessible to emergency 
managers at the local, state, and national levels and other 
organizations approved for placement of Reserve Corps members that 
contains regularly updated information necessary for effective 
deployment of Reserve Corps resources including: information describing 
availability, special skills, and certifications of each member and 
member contact information;
    <bullet> Establishing a website, electronic mail, and other 
communications systems needed to ensure safe and efficient deployment 
of Reserve Corps resources;
    <bullet> Developing agreements with disaster relief organizations, 
participating national service programs, and other organizations with 
whom Reserve Corps members would affiliate;
    <bullet> Developing necessary training curriculum and delivery 
mechanisms including ``just-in-time'' training as appropriate; and
    <bullet> Developing content and standards needed for inclusion of 
the Reserve Corps in national, state, and local disaster management 
plans.
    National Service Reserve Corps will be authorized at such sums as 
may be necessary.
                                 ______
                                 
    Chairwoman McCarthy. Mr. Gudonis.

 STATEMENT OF PAUL R. GUDONIS, PRESIDENT, FOR INSPIRATION AND 
         RECOGNITION OF SCIENCE AND TECHNOLOGY (FIRST)

    Mr. Gudonis. Good morning and thank you, Chairwoman 
McCarthy, Congressman Davis and members of the subcommittee, I 
am Paul Gudonis president of FIRST, For Inspiration and 
Recognition of Science and Technology. We are a non-profit 
whose 60,000 volunteers share a vision with FIRST founder and 
inventor Dean Kamen.We want to inspire young people to dream of 
becoming science and technology heroes. Many of America's 
future challenges, from finding new sources of energy to 
responding to threats to our national security are going to 
require new technologies. So FIRST works to encourage students 
to become tomorrow's innovators.
    Big challenge for FIRST is that we face a major cultural 
problem. The media lionizes sports stars and Hollywood idols, 
and too many young people believe that their best opportunity 
in life is bouncing a ball or singing their way to fame. A 
culture gets what it celebrates. And unfortunately, we are not 
celebrating the hard work and innovation that created this 
Nation's standard of living and leading competitive economy.
    So FIRST addresses this by engaging over 130,000 students a 
year in robotics competitions, a sport of the mind which 
emphasizes creativity, team work and gracious professionalism. 
Each year teams of students work side by side with engineers 
and scientists from over 2,000 organizations, large 
corporations such as GM, GE, IBM, Xerox and Boeing; technology 
companies, such as Google and Microsoft; leading universities, 
such as MIT and Georgia Tech; and government agencies, 
including NASA.
    The idea behind FIRST is simple. Kids love the competition 
in spectacle sports, and they look up to adult role models. The 
role models in FIRST have day jobs designing aircraft at 
Lockheed Martin or developing wireless technology at Motorola. 
As for spectacle, I just returned from last weeks's first 
championship, the Super Bowl of Smarts, attended by 20,000 
people in the Georgia Dome, while millions more saw it on TV 
and across the Internet.
    Well, does FIRST succeed? Well, based on the research 
conducted by Brandeis University, FIRST participants are 50 
percent more likely to attend college, three times as likely to 
major in engineering and nine times as likely to have an 
internship with a company during college.
    For women and minorities, results are equally dramatic. 
Young women go on to studies in science and engineering at 
three times the average, and minority members of FIRST teams 
enter these teams at 150 percent the rate of nonparticipants. A 
team composed primarily of minorities in Phoenix attend a 
school where only 10 percent of students continue their 
education beyond high school. All six graduating FIRST team 
members this past year earned full scholarships at Arizona 
State University. Overall, more than $8 million in scholarships 
are available to more than 75 colleges and universities for 
FIRST team members.
    While FIRST has a staff of only 70, it is the 60,000 
volunteers who power this life-changing experience for FIRST 
participants. We also have a small and highly effective group 
of volunteers through the Corporation For National and 
Community Service and the AmeriCorps and VISTA program. They 
multiply their impact by each recruiting as many as 100 other 
volunteers into FIRST. And we also collaborate with other 
volunteer organizations, such as Boys and Girls Clubs, Girl 
Scouts and 100 Black Men to bring FIRST programs to their 
members.
    Engineering professionals are encouraged by the companies 
who also sponsor the teams to serve as mentors. For some, it is 
a way to strengthen our Nation's competitiveness. For others, 
it is a way to build a pipeline of tomorrow's workforce. And 
others want to give back and provide opportunities to under-
served communities. These volunteers are truly the rock stars 
of FIRST.
    These mentors pass on their passion for service and 
technology and, as importantly, values that include community 
service and volunteerism. FIRST students are twice as likely to 
volunteer. And they believe they should be leaders in their 
communities. FIRST high school teams mentor younger students. 
They help rebuild homes devastated by Hurricane Katrina, and 
they develop science projects to share the fun with younger 
students. The spirit is encouraged by FIRST's highest award, 
the Chairman's Award, which is not for building the fastest 
robot. Rather, it is for community service and outreach.
    Thanks to the energy and the commitment of these wonderful 
volunteers, we have grown dramatically. Yet only 5 percent of 
U.S. high schools have a FIRST team. Governor Jennifer Granholm 
of Michigan has said, Just as every high school has a football 
team, it should have a FIRST Robotics team. That is how we will 
change the culture of our country.
    So, going forward, we plan to step up the pace and start 
more FIRST teams in more schools. We will continue to overcome 
the two largest obstacles in expanding the program, which is 
finding sponsors for additional teams and recruiting teachers 
to take on the extra load of coaching a FIRST team. We will 
seek extra pay similar to what teachers who coach football or 
lead the school play receive to the teachers who spend their 
nights and weekends inspiring the next generation of innovators 
and technology entrepreneurs that have made this Nation the 
leader that it is.
    Well, thank you for the opportunity to tell you about the 
volunteers at FIRST, the important work they are doing and the 
results they are achieving.
    [The statement of Mr. Gudonis follows:]

 Prepared Statement of Paul R. Gudonis, President, For Inspiration and 
             Recognition of Science and Technology (FIRST)

    Good morning and thank you, Chairwoman McCarthy, Ranking Member 
Platts, and members of the Subcommittee.
    My name is Paul Gudonis, and I am President of FIRST, a nonprofit 
organization whose 60,000 volunteers share a common vision: To inspire 
young people to dream of becoming science and technology heroes. FIRST, 
which stands for, For Inspiration and Recognition of Science and 
Technology, was founded 18 years ago by inventor Dean Kamen to address 
the cultural problem we face to excite our young people about the world 
of science, engineering and technology.
    Many of America's future challenges--finding new sources of energy, 
fighting disease, cleaning the environment, and responding to threats 
to our national security--will require new technologies as well as 
political will and community engagement. FIRST works to interest 
today's students in becoming tomorrow's innovators.
    FIRST accomplishes this objective by engaging over 130,000 students 
annually in robotics competitions--a sport of the mind, which 
emphasizes innovation, teamwork, co-opetition (competing while 
collaborating) and Gracious Professionalism. We offer a set of programs 
for students in grades K-12: Junior FIRST LEGO League for the youngest 
students; FIRST LEGO League for middle school children; and the FIRST 
Robotics Competition and junior varsity FIRST Vex Challenge for high 
school students. Starting in the fall of each school year, teams of 10 
students in grade school sign up for the FIRST LEGO League while high 
school teams of 25 students join the FIRST Robotics Competition. They 
work side-by-side with professional engineers and scientists from over 
2000 companies and institutions: large corporations such as GM, GE, 
IBM, Xerox, and Boeing; technology companies such as Google, Cisco, and 
Microsoft; leading universities including MIT and Georgia Tech; and 
government agencies such as NASA.
    The idea behind FIRST is a simple one: Young people love the 
competition and spectacle of sport, and they look up to adult role 
models. The role models in
    FIRST are our nation's best and brightest, whose day jobs may be 
designing the newest aircraft at Lockheed-Martin or developing the 
latest wireless technology at Motorola. By volunteering on a FIRST 
team, they mentor these students and open up new opportunities for them 
in science and engineering. And as for spectacle, I just returned from 
the FIRST Championship, the Super Bowl of Smarts, which was attended by 
20,000 people in the Georgia Dome, site of the 1996 Summer Olympics and 
that other Super Bowl a few years ago. Millions watched the coverage on 
CNN and on the Internet.
    The challenge for FIRST is not just in forming new teams and 
attracting even more volunteers. We also face a major cultural problem 
here in the United States. The media lionize sports stars and Hollywood 
idols and inundate our youth with messages that lead them to believe 
that their best opportunity in life is to spend hours bouncing a ball 
to earn a shoe contract, or to sing their way to fame. A culture gets 
what it celebrates, and unfortunately, we are not celebrating the hard 
work and ingenuity that created this nation's high standard of living 
and leading, competitive economy. We take for granted that we have 
electricity, clean water, transportation systems, computers and 
telecommunications, and a longer lifespan due to our advances in 
medical technology.
    Addressing this problem is what convinced Dean Kamen to start 
FIRST. As a National Medal of Technology recipient, holder of over 450 
patents, and inventor of numerous medical devices, he launched FIRST in 
1989 with the support of a group of concerned CEO's from some of 
America's major companies. FIRST is established as a 501 (c) 3 
nonprofit organization headquartered in Manchester, New Hampshire. The 
board of directors is composed of individuals who have experience as 
senior executives of major corporations involved in medical technology, 
information systems, automobile manufacturing, aerospace, education, 
and other fields. The Chairman of the Board is John Abele, founder and 
retired chairman of Boston Scientific. The organization has an 
operating budget of $22 million annually and fulltime staff of 70 
people, twenty of whom are deployed in field locations across the 
United States.
First Programs
    At the heart of FIRST is an interlinked continuum of programs 
providing life-changing experiences for young people ages six to 
eighteen. FIRST programs provide ever increasing challenges in the 
field of science, technology and engineering with the goal of engaging 
children in their early school years and then advancing them to the 
flagship program the ``FIRST Robotics Competition'' for high school 
students. The FIRST continuum is depicted below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FIRST LEGO League (FLL) is designed for students 9-14, and Junior 
FIRST LEGO League is for kids 6-9. Each September, FLL teams of up to 
10 children take on a new Challenge based on current real-world 
problems facing scientists and engineers globally. FLL has two key 
parts. In the robot game, teams design, build, test and program 
autonomous robots that must perform a series of tasks or missions. In 
the research project, teams conduct research and create technological 
or engineering solutions and must present their findings to a panel of 
judges at tournaments. Teams participate in one-day events during a 
three-month tournament season.
    The FIRST Vex Challenge (FVC) is designed for small teams of high 
school aged students who work with one or two dedicated mentors to 
design, build, and test a robot using an off-the-shelf kit. Teams, 
which typically meet once or twice a week, maintain an engineering 
notebook through the season to document the engineering process and 
their journey from initial concept to final design. In challenges that 
change each year, robots operate autonomously and under operator 
control.
    In the FIRST Robotics Competition (FRC), teams of high school 
students have a thorough experience of the process of innovation and 
engineering during an extremely intense 6-week ``design/build'' season 
starting in early January. Teams receive a common ``Kit of Parts'' in a 
large crate. There are no instructions, just a set of rules for the 
year's game. Students work with mentors--engineers, technologists, 
business people, and innovators--to create a team and robot that 
competes and collaborates in alliances during three-day events in 
March. During the season, many teams work daily for 2-4 hours or more. 
According to many, ``FRC is a 'real-life' engineering experience. We 
never have enough time, information, or money, but we do have a hard 
deadline and we know there are 1,300 other teams working just as hard 
as we are.''
    Youth can participate in FIRST LEGO League, FIRST Vex Challenge and 
FIRST Robotics Competition from kindergarten through high school. 
Adults, including many FIRST alumni, become team mentors or volunteers 
of many types. The experience of FIRST participants is further enhanced 
by FIRST's unique, powerful collaboration with industry, academia, 
government, and non-profits.
    While our mission is to inspire young people through these after-
school activities, there is a lot of learning going on. Students use 
mathematics in designing their robots (algebra, geometry, trigonometry, 
and calculus); they apply principles of physics and chemistry and learn 
to experiment while building these machines. To encourage sound 
engineering practices, teams are required to document their work in an 
Engineering Notebook. To compete for awards, they must develop skills 
in language arts, writing their award submissions and honing their 
public speaking abilities. Operating a FIRST team is much like running 
a small business enterprise, and teams have to develop a marketing and 
public relations plan, raise the necessary funds (salesmanship), and 
keep track of their finances. They also develop skills in computer 
programming by creating a website for their teams and using 
professional Computer Aided Design and 3D animation software as part of 
their design process.
Program Growth
    The FIRST Robotics Competition (FRC) has grown from 28 teams of 
high school students in its inaugural year of 1992 to 1306 in the 
current season. In the upcoming year, we will be holding a record 41 
regional tournaments in the United States, Canada, Brazil, and Israel 
as qualifying events for the FIRST Championship that will be held in 
Atlanta, Georgia in April 2008.
                          number of frc teams
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 locations of frc regional tournaments
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Each year, a panel of volunteers from industry and academia design 
a new research challenge for the FIRST LEGO League teams. In 2003, the 
game was Mission Mars, based upon NASA's Spirit and Opportunity robotic 
exploration of the planet Mars. In 2004, the teams researched human 
disabilities in the No Limits challenge. In 2005, the children studied 
the seas in Ocean Odyssey, and in this past season, they learned about 
nanotechnology as they studied bucky balls, carbon nanotubes, and other 
molecular structures. For 2007, they will be tackling the world of 
alternative energy in Power Puzzle, a very relevant topic to our 
nation's environment and energy security.
    The FIRST LEGO League has grown to over 8800 teams in the United 
States and 45 countries through the relationship FIRST has with the 
LEGO Company, which manufacturers the Mindstorms robotics kits used in 
this program.
                     first lego league team growth
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Volunteers
    FIRST is possible because of the commitment of 60,000 volunteers 
who serve as team mentors, technical advisors. judges, referees, 
fundraisers, tournament organizers, and in various support capacities. 
They are professional engineers and scientists, teachers, parents, 
university students and faculty, FIRST alumni, and retirees. They share 
a common vision of what adult role models can do to inspire the young 
people who participate on a FIRST team. Like pro sports figures or 
Hollywood icons, these volunteers are the real ``rock stars of FIRST.''
    Over 2000 corporate sponsors encourage their technical employees to 
volunteer for FIRST. These companies recognize that they have a role to 
play in ensuring the nation's competitive leadership by developing the 
next generation of technical talent. These employers are facing a 
shortage of trained scientists and engineers, especially as ``baby 
boomers'' approach their retirement age. As Mr. Al Canton, Executive 
Director of General Motors' Proving Grounds and Test Operations put it, 
``We believe getting kids involved in science and technology is good 
for everyone, and it certainly feeds our pipeline for future 
engineers.''
    Mr. Galen Ho, President-Information and Electronic Warfare Systems 
for BAE Systems North America concurs. He states, ``FIRST is a wise 
investment for BAE Systems because it energizes tomorrow's scientists, 
engineers, and leaders. That's good for the individual student, the 
community, and the nation.'' Likewise, Mr. Steve Sanghi, CEO of 
Microchip Technology in Arizona explained that ``FIRST isn't just about 
building robots, it's about developing life skills. The kids learn 
skills in relationships, teamwork, finance, fundraising, budgeting, and 
project management. The partnership between academia, the community, 
and industry * * * will build our future employees and future 
citizens.''
    The FIRST staff recruits, trains, and supports the many volunteers 
who donate their time and talents to FIRST teams. FIRST provides 
handbooks and coaches' guides, conducts online and in-person workshops, 
and publishes information via our website to enable these volunteers to 
serve effectively. FIRST also screens volunteers for certain positions 
and collaborates with schools and other organizations to make sure that 
volunteers are appropriate for these activities.
    The Corporation for National and Community Service administers 
funding for approximately 20 volunteers who serve as FIRST Senior 
Mentors, reaching out in their communities to recruit additional teams 
and connect them with volunteer mentors from local corporations. In 
addition, a dozen AmeriCorps VISTA volunteers assist in their 
geographic areas to support new FIRST teams, thus engaging more schools 
and communities in the FIRST experience. These resources are highly 
effective for FIRST by multiplying their impact-a single volunteer in 
this role attracts 100 mentors and supporters to the program.
    Other volunteer organizations also combine their resources with 
FIRST to reach more students and communities. Through local 
partnerships with Boys and Girls Clubs, Girl Scouts, IEEE, Girls Inc., 
and the Society of Women Engineers (SWE) among others, FIRST is able to 
establish and mentor additional teams and bring the excitement of 
participating in FIRST to more young people.
    While the number of FIRST volunteers grows each year with the 
growth of the various programs and expansion into new cities and 
states, we have a very high retention rate among these dedicated 
individuals. Some FIRST Robotics Competition teams have been in 
existence in their communities for over a dozen years, and while the 
students have graduated and moved on, the engineering mentors often 
remain committed to these teams, constantly inspiring a new cohort of 
students that are coming through the program.
Sponsorship
    Conducting these programs requires funding in addition to the 
significant volunteer manpower involved in making FIRST happen. Teams 
are encouraged to raise the money to pay for robotics kits, extra 
parts, uniforms, and travel by asking major corporations, local 
businesses, and individuals to support their participation in FIRST. 
Corporate sponsors are the largest source of funding for teams, often 
sponsoring multiple teams through their business units across the 
country. For example, GM provides funding and 275 engineering mentors 
for 55 FRC teams, supports over 100 FIRST LEGO League teams, and 
sponsors several regional tournaments. GE supports twenty-five FRC 
teams and other FIRST programs, and Motorola sponsors FRC and FLL 
teams, in conjunction with their Girl Scouts of the USA initiative.
    In addition to providing cash contributions, many companies donate 
materials for the robotics kits. We are able to keep down the cost of 
participating in FIRST thanks to the generous contribution of motors, 
gears, pneumatics, batteries, and many other components by industry 
suppliers. Software maker Autodesk provides professional-grade design 
software to all of the FRC teams. Federal Express has donated free 
shipping of the kits of parts and finished robots for many years; this 
past season, that amounted to over 100 tons of free shipping.
    Universities also sponsor FIRST events. In some cases, they will 
contribute to the cost of a regional tournament, provide students and 
facilities for one of the robotics teams, or subsidize the cost of the 
basketball arena to be used as a competition venue.
Scholarships
    These universities also support FIRST's goal of increasing student 
interest in science and engineering careers by enabling their college 
education. Over 75 colleges and universities offer 430 scholarships 
totaling $8 million in value to FIRST graduates. These scholarships are 
available to FIRST team members who are accepted by the college or 
university and meet any other financial aid criteria established by the 
institution. From what the universities tell us, they love FIRST 
program veterans because they make excellent science and engineering 
students because of their hands-on experiences and adoption of FIRST 
values.
Impact
    Does FIRST accomplish its mission? Based on research conducted by 
Brandeis University, FIRST participants are 50% more likely to attend 
college, twice as likely go on to major in science or engineering, and 
three times as likely as a comparison group to major specifically in 
engineering. Upon entering college, they are nine times as likely to 
have an internship with a company and they expect to pursue a career in 
engineering at four times the rate of a comparison group of matched 
peers. For women and minorities, the results are equally dramatic: 
Young women go on to studies in science and engineering at three times 
the average, and minority members of FIRST teams enter these fields at 
150% the rate of non-participants. Executive Summaries of these studies 
are included in Appendices A and B.
    There are many individual stories as well. A young man in Brooklyn 
wrote to me about how, before joining a FIRST team, he belonged to 
another type of team, one you grow up with on the streets, but can't 
talk about. He wasn't very interested in school, smoked two bags of 
marijuana a day, and had been arrested for robbery, possession, and 
selling. Since he joined the FIRST Robotics team, mentored by some 
wonderful technologists, he has stayed in school, has a ``legal salary 
job'' for the FIRST time in his life, and is looking forward to 
college.
    A team composed primarily of minorities in Phoenix attends a school 
where only 10 percent of the students continue their education beyond 
high school. All six graduating FIRST team members this past year 
earned full scholarships to Arizona State University. Being on a FIRST 
team has opened up a new world of opportunity for them--and created a 
group of motivated, smart individuals who will be pursuing careers in 
science and technology.
    The mentors pass on their passion for science and technology, and, 
as importantly, a set of values that includes community service, FIRST 
students are twice as likely to become volunteers and believe that they 
should be leaders in their communities. During the off season, FIRST 
high schools teams mentor younger students with their LEGO robotics 
kits; they are helping to rebuild homes devastated by Hurricane 
Katrina, and they are using their talents to develop science programs 
to share the fun with other young people.
    FIRST's highest award is the Chairman's Award, and it is not for 
the fastest or highest-scoring robot. Rather, the judges select the 
team that best reaches out to their community, recruiting and mentoring 
rookie teams and performing service projects that exhibit the values of 
FIRST.
Increasing the Impact of FIRST
    Thanks to the energy and commitment of these wonderful volunteers, 
we've grown dramatically, yet only 5% of US high schools have a FIRST 
team. Some states have even fewer; New Hampshire leads the nation with 
38% of its high schools boasting a FIRST team. In Rhode Island, every 
high school now has an opportunity to compete in the FIRST Vex 
Challenge program. As Governor Jennifer Granholm of Michigan stated 
during her visit to the Detroit FIRST Robotics Competition regional 
tournament last year, ``Just as every high school has a football team, 
it should have a FIRST team.'' That's how we'll change the culture of 
our country.
    We have the volunteers, and I can find more among our nation's 
technology companies and the large corps of retired engineers who want 
to share their skills with young people. The biggest obstacles to 
starting more FIRST teams and engaging more students is finding 
additional sponsors and convincing teachers to take on the extra load 
of coaching a FIRST Robotics team. Teachers are already overworked and 
underpaid, and we know from experience that offering them a stipend 
would be a big boost to the program for a variety of reasons.
    Teachers who coach football and basketball teams or organize the 
school play often receive extra pay for their time. We should do the 
same for the teachers who will spend their nights and weekends 
inspiring the next generation of innovators, medical researchers, and 
technology entrepreneurs that have made this nation the leader that it 
is.
    FIRST will work with states and local communities to address this 
issue, and continue to seek out additional sponsors and supporters of 
FIRST teams. Our board of directors has reaffirmed its commitment to 
the vision of FIRST by endorsing a plan of continued growth in program 
participation--engaging more students, schools, communities, sponsors, 
and volunteers. Given the challenges and opportunities facing our 
nation today, we recognize the importance of ``stepping up the pace'' 
and inspiring more young people to gain the education and skills 
necessary for an increasingly technological economy.
    Thank you for the opportunity to tell you about the volunteers of 
FIRST, the important work they are doing, the impact they are having, 
and the results they are achieving.
                                 ______
                                 

   More Than Robots: An Evaluation of the First Robotics Competition

                 Participant and Institutional Impacts

 Center for Youth and Communities, Heller School for Social Policy and 
                    Management, Brandeis University

Executive Summary
    In 2002, FIRST contracted with Brandeis University to conduct an 
evaluation of the FIRST Robotics Competition. The goal of the 
evaluation was to begin to address three basic questions:
    <bullet> What is the impact of the FIRST Robotics Competition on 
program participants in terms of academic and career trajectories?
    <bullet> What can we learn about the implementation of FIRST in 
schools, both in terms of better understanding program impact and 
identifying ``best practices''?
    <bullet> What kinds of impact has participation in FIRST had on 
participating schools and partnering organizations?
    An additional goal of the study was to focus the evaluation on 
schools in urban communities and/or serving high proportions of low 
income and minority students. One of the goals of FIRST has been to 
expand the involvement of low income and minority youth in FRC, and the 
evaluation was seen as an opportunity to explore the impacts of the 
program on those groups in particular.
    To address these questions, Brandeis conducted a two-part study:
    <bullet> To assess impacts on program participants, Brandeis 
conducted a retrospective survey of FIRST participants who graduated 
from the program between 1999 and 2003. The study focused on students 
from teams from two metropolitan areas--New York City and the Detroit/
Pontiac metropolitan area--to ensure the inclusion of schools serving 
low income, urban or minority students.\1\ Approximately 300 FIRST 
alumni were contacted for the study. 173 (57%) responded and were 
included in the analysis. In order to provide a comparison with youth 
who had not been in FIRST, the study also included a comparison of FRC 
survey results with comparable data from an existing national dataset: 
the Beginning Postsecondary Student (BPS) Survey, a national sample of 
college-going students available through the U.S. Department of 
Education.
---------------------------------------------------------------------------
    \1\ The initial program design called for inclusion of schools from 
a third area: the San Jose/San Francisco metropolitan area. Because of 
difficulties in accessing participant data from those teams, only one 
California team ended up in the study.
---------------------------------------------------------------------------
    <bullet> To provide feedback on program implementation and 
institutional impacts, the evaluation also conducted site visits and 
interviews with team representatives in 10 participating high schools 
in the two communities. Those visits were designed to gather 
information on the implementation of the program and impacts on 
participating schools and program sponsors.
    The purpose of this report is to convey the final results from both 
the retrospective survey and site visits.
Key Findings
    Key findings from the study include the following:
            Program Participants
    <bullet> The FIRST alumni in the study represent a diverse group, 
including substantial numbers of students who are minorities, women, 
and from families with a limited educational background. Fifty-five 
percent of the respondents were non-white (African-American, Asian, 
Hispanic, and multi-racial); 41% were female; and 37% came from 
families where neither parent had attended college (including community 
college).
    <bullet> At the same time, participants were relatively successful 
students in high school. The mean high school Grade Point Average for 
alumni in the sample was 3.5 (B+) and 84% had a B average or above. 
Average SAT and ACT scores and participation in high school math and 
science classes among respondents were both above the national 
averages. What is not clear (and cannot be answered in this study) is 
whether this strong performance in high school was the result of 
involvement in FRC, or whether FRC attracted strong students, or both.
            Team Members' Assessments of FIRST
    Based on the survey responses, FIRST provided a positive experience 
that gave participants an opportunity to be involved in a challenging 
team activity, build relationships, learn new skills, and gain a new 
understanding of and interest in science and technology.
    <bullet> Almost all participants felt FIRST had provided them with 
the kinds of challenging experiences and positive relationships 
considered essential for positive youth development.
    <bullet> Eighty-nine percent indicated they had ``real 
responsibilities;'' 76% felt they had a chance to play a leadership 
role; and 74% reported that students made the important decisions. 
Ninety-six percent reported having fun.
    <bullet> Ninety-five percent reported getting to know an adult very 
well, and 91% felt they learned a lot from the adults on the team. 
Ninety-one percent felt they ``really belonged'' on the team.
    <bullet> Most participants also reported a positive impact on their 
attitudes towards teamwork, interest in science and technology, and how 
they saw themselves. Participants reported:
    <bullet> An increased understanding of the value of teamwork (95%) 
and the role of ``gracious professionalism'' (83%).
    <bullet> An increased understanding of the role of science and 
technology in everyday life (89%), increased interest in science and 
technology generally (86%), and increased interest in science and 
technology careers (69%).
    <bullet> Increased self-confidence (89%) and an increased 
motivation to do well in school (70%).
    <bullet> FIRST also helped increase participants' interest in 
serving others: 65% of respondents reported that, as a result of FIRST, 
they wanted to help younger students learn about math and science; 52% 
reported that they had become more active in their community.
    <bullet> The large majority of participants also reported that 
FIRST had helped them gain communications, interpersonal, and problem-
solving skills, and how to apply academic skills in real-world 
settings.
    <bullet> More than 90% reported learning important communications 
skills, such as how to listen and respond to other people's suggestions 
(94%) and how to talk with people to get information (94%). Seventy-
three percent reported learning how to make a presentation in front of 
people they did not know.
    <bullet> Students also learned teamwork and interpersonal skills. 
Ninety-two percent reported learning how to get along with other 
students, co-workers, teachers and supervisors; 90% learned to work 
within the rules of a new organization or team; 88% reported learning 
new ways of thinking and acting from others; and 73% learned ways to 
stop or decrease conflicts between people.
    <bullet> Students learned problem-solving and time management 
skills: how to solve unexpected problems (93%); how to manage their 
time under pressure (90%); how to weigh issues and options before 
making decisions (94%); and how to gather and analyze information 
(88%).
    <bullet> Students also learned to apply traditional academic skills 
in real-world setting: 68% reported learning how to use computers to 
retrieve and analyze data, and 67% reported learning about using 
practical math skills such as using graphs and tables or estimating 
costs.
    <bullet> Overall satisfaction with the program was high. Ninety-
five percent of the alumni rated their experience as ``good'' or 
``excellent'' (27% and 68% respectively). Forty-six percent of 
respondents indicated that FIRST had been ``much more influential'' 
than their other activities during high school.
    <bullet> Finally, response to open-ended questions on the survey 
tended to reinforce these findings: participants cited the team 
experience as particularly influential and cited team skills, new 
relationships, an increased focus on science and engineering, and 
increased self-confidence and motivation, among others, as long-term 
impacts from the program.
            Education, Career and Developmental Outcomes
    While participant assessments provide one measure of FIRST's 
impact, the ultimate measures of FIRST's effectiveness are the degree 
to which alumni go on to have productive educational experiences, 
careers, and lives in their communities. The analysis of the alumni 
survey data indicate that FIRST alumni are making a successful 
transition to college, and are much more likely to pursue their 
interests in science and technology and become involved in their 
communities than is the case for college-going students generally or 
for the matched group of comparison students.
    <bullet> The large majority of FIRST alumni graduated high school 
and went to college at a higher rate than high school graduates 
nationally.
    <bullet> Among those responding to the survey, 99% reported 
graduating high school and 89% went on to college. At the time of 
survey, 79% were still in college; most of the others were employed. 
(Only 5.5% of the alumni reported that they were unemployed.) These 
figures compare favorably to the national average where (based on U.S. 
Census data) 65% of recent high school graduates went to college.
    <bullet> The high levels of college-going applied across the board 
to both men and women and across racial and ethnic groups in FIRST. 
Seventy-seven percent of female FRC alumni were in college, 68% of 
African-American alumni, and 78% of Hispanic alumni--all above the 
national averages for those groups.
    <bullet> Once in college, a substantial proportion of FIRST alumni 
took courses and participated in jobs and internships related to 
science, math and technology.
    <bullet> Eighty-seven percent took at least one math course and 78% 
took at least one science course in college. Perhaps more striking, 51% 
took at least one engineering course.
    <bullet> Nearly 60% of FIRST alumni had at least one science or 
technology-related work experience (internship, apprenticeship, part-
time or summer job). Thirteen percent received grants or scholarships 
related to science or engineering; and 66% reported receiving any kind 
of grant or scholarship.
    <bullet> High proportions of women and minorities also participated 
in math/science/technology courses and internships. Forty percent of 
female alumni took engineering classes, 59% had a science/technology 
internship or job. Forty-six percent of African-American alumni and 53% 
of Hispanic alumni took engineering courses. Sixty-four percent of 
African-American alumni (but only 29% of Hispanic alumni) had science/
technology internships or jobs.
    <bullet> FIRST alumni were also substantially more likely to major 
in Engineering than the average college student nationally.
    <bullet> Of those FIRST alumni reporting a college major, 41% 
reported they had selected Engineering. Based on national data from the 
U.S. Department of Education's Beginning Postsecondary Student study, 
FIRST alumni were nearly seven times as likely to become Engineering 
majors as the average college student nationally (41% for FRC alumni 
vs. a national average of 6%). FIRST alumni were also twice as likely 
to enroll as Computer Science majors (11% vs. 5% nationally).
    <bullet> Women and minority alumni also majored in Engineering at 
comparatively high rates. Thirty-three percent of the female FRC 
alumni, 27% of the African-American alumni, and 47% of the Hispanic 
alumni reported majoring in Engineering (compared to national averages 
of 2%, 5% and 6% respectively).
    <bullet> Finally, FIRST alumni were also substantially more likely 
to aspire to higher levels of education than the average college 
student nationally. Seventy-eight percent of FIRST alumni reported 
expecting to attain a post-graduate degree, either a Master's degree 
(47%) or another terminal degree such as a Ph.D., MD, or MBA (32%). 
Only 2 participants in the study (1.4%) reported that they did not 
expect to attain any kind of degree. Nationally, 60% of students in the 
Department of Education's BPS study aspired to completing a Masters 
degree or higher and 4.4% did not expect to receive any degrees.
    The positive education and career outcomes for FIRST participants 
were also evident in an analysis that compared FIRST participants with 
a matched comparison group of students drawn from the national 
Beginning Postsecondary Student survey data. The comparison students 
were matched with FRC alumni in terms of their demographic 
characteristics and their high school academic backgrounds, including 
similar levels of high school math and science course-taking. Major 
findings from that comparison group analysis reinforce the positive 
outcomes associated with participation in FRC. FIRST alumni were:
    <bullet> Significantly more likely to attend college on a full-time 
basis than comparison students (88% vs. 53%);
    <bullet> Nearly two times as likely to major in a science or 
engineering field (55% vs. 28%) and more than three times as likely to 
have majored specifically in engineering (41% vs. 13%);
    <bullet> Roughly 10 times as likely to have had an apprenticeship, 
internship, or co-op job in their freshman year (27% vs. 2.7%); and
    <bullet> Significantly more likely to expect to achieve a 
postgraduate degree (Master's degree or higher: 77% vs. 69%).
    <bullet> More than twice as likely to expect to pursue a science or 
technology career (45% vs. 20%) and nearly four times as likely to 
expect to pursue a career specifically in engineering (31% vs. 8%).
    In each case, these differences were statistically significant. The 
differences in engineering majors and careers also applied to female 
and non-white FIRST participants, who were significantly more likely to 
declare engineering majors or expect to enter an engineering career 
than students in the comparison group.
    FIRST alumni were also significantly more likely to be involved in 
community service and to express a commitment to several positive goals 
and values than the members of the matched comparison group.
    <bullet> FRC alumni were more than twice as likely to perform some 
type of volunteer service in the past year as were students in the 
matched comparison group (71% vs. 30%),
    <bullet> FIRST alumni were also significantly more likely to 
provide some of the specific types of service that might be associated 
with FIRST team efforts: tutoring, coaching or mentoring with young 
people (such as helping another team or a younger team), fundraising, 
and neighborhood improvement. In each of those specific categories of 
service, FRC alumni reported levels of volunteer service that were four 
to ten times as high as those of the comparison students.
    Finally, the only outcomes in which the data indicate that FRC 
students did significantly worse than the comparison students were in 
receipt of grants and scholarships in their freshman year and across 
all four years of college. This is a somewhat surprising result given 
FIRST's active efforts to raise scholarship monies for FRC participants 
and the fact that 66% of FRC participants reported some form of grant 
or scholarship in college. However, it suggests that, as of the time 
these FRC students were going on to college (1999-2003), those efforts 
had not yet resulted in a relative advantage for FRC participants in 
grant or scholarship funding when compared to students with similar 
backgrounds.
    In sum, the data from the FRC survey shows FIRST as having a 
strong, positive impact on participating youth, including women and 
minorities. Based on the data from this study, FIRST appears to be 
meeting its goals of providing a positive and engaging developmental 
experience for young people and is succeeding in its efforts to 
increase the interest and involvement of participating youth in science 
and technology.
            Institutional Contexts: Impacts on Schools, Teachers, and 
                    Mentors
    <bullet> Based on data gathered through site visit interviews and 
observations, FIRST has also had a positive impact on participating 
schools and teachers, though that impact was limited in scope.
    <bullet> Involvement in FIRST has led to creation of new courses 
and/or integration of robotics instruction into existing classes in 8 
of the 10 schools visited. FIRST has also helped teachers to develop or 
exercise new skills (primarily planning and management skills) and has 
had a positive effect on school spirit in a number of schools (one team 
leader attributed an increase in school enrollment to FRC's impact on 
school reputation).
    <bullet> At the same time, involvement in FRC has not led to 
broader changes in teaching or curriculum, or to the establishment of 
broader partnerships with FRC sponsors. In most cases, this was not 
seen as a goal for the program.
    <bullet> Mentors played an important role in almost all of the 
teams visited, with the specific roles varying widely.
    <bullet> Most teams reported mentors provided assistance through a 
combination of topic-based technical workshops for team members and 
hands-on guidance with individual students. In some cases, mentors also 
helped students with homework and worked to develop positive 
relationships with students on the teams. None of the mentors reported 
receiving any training in preparation for their role, though only two 
felt that it was needed.
    <bullet> Some sponsors took additional steps, including working 
with multiple teams, establishing workshops for teams in a region, 
allowing multiple teams to use workshop space, and in some cases 
branching out to start new or work with new teams.
    <bullet> At least 3 of the 10 teams in the study also had FIRST 
alumni working as mentors.
    <bullet> Mentors generally reported positive impacts, including 
opportunities for career advancement, increased morale and job 
satisfaction, access to new hires, and a sense of satisfaction and 
connection to students on the team.
    <bullet> In general, company-wide impacts on the sponsoring 
companies were limited. While some firms did include their involvement 
in FIRST in promotional materials, most did not. Similarly, while 
individuals within firms recruited interns from among FIRST 
participants, most recruiting and hiring of FRC participants took place 
on an ad hoc basis rather than through consistent company policy.
    <bullet> Site visit interviews also identified a number of barriers 
and challenges faced by the teams. Some of those challenges include the 
following:
    <bullet> Start-up challenges: learning how to organize and run the 
team.
    <bullet> Meeting space: access to space and equipment to build the 
robot.
    <bullet> Transportation and safety: transporting students to and 
from team meetings, particularly during competition season when the 
team might work until late at night.
    <bullet> Financial challenges: obtaining and maintaining sources of 
funding was overwhelmingly reported to be the primary challenge in 
doing FRC, with travel (to tournaments) as the biggest cost.
    <bullet> Burnout: most coaches noted burnout as a danger and 
suggested strategies that included dividing the workload among several 
coaches and ``over-organizing'' to ensure smooth team operations.
    <bullet> Working with sponsoring corporations: several teams 
reported challenges working with sponsoring companies, including 
limited team control over the budget and pressure on the mentors to win 
from the company CEO.
    <bullet> Recruiting mentors: experiences varied widely, with 
Michigan teams generally reporting greater corporate support (most had 
been approached by companies) and those in NYC reporting greater 
challenges in securing the interest of sponsors and mentors.
    <bullet> Recruiting teachers: another ongoing challenge, but an 
important step for teams to take in order to share the workload. In 
some cases recruitment was difficult because non-FRC teachers were 
resentful of the attention received by those already involved in FRC or 
saw the FRC team as ``owned'' by a particular teacher.
    <bullet> School administrative and district support: support 
varied, from strong administrative support and access to resources, to 
more reluctant support. Similarly, district support ranged from little 
or none (because of budget cuts) to active support (funding for travel, 
etc.). One key is making the benefits of participation clear.
    <bullet> Parent support: most teams indicated they have only low 
levels of parent volunteer support.
    <bullet> Several additional challenges were also identified by the 
mentors who were interviewed as particularly important in working with 
underserved schools. Those included:
    <bullet> Turnover of school administrators: high levels of turnover 
at urban schools required that administrator 'buy-in' be renewed on a 
regular basis.
    <bullet> Attendance of team members at meetings: the need of some 
team members to balance team participation with after-school 
responsibilities, including work and child care for siblings, made 
consistent involvement difficult for students on some teams. 
Transportation to and from meetings also presented a problem for some 
team members.
    <bullet> Addressing the needs of students from underserved areas: 
while positive about their experiences, some mentors did note the 
additional challenges involved in working with students, i.e., 
difficult personal lives or limited experiences and social skills.
    <bullet> Working with school staff: gaining consistent teacher 
participation, challenges in communicating with teachers, and 
differences in operating philosophies.
Recommendations
    The principal findings of this study provide strong support for the 
continued growth and expansion of the FIRST robotics programs, 
particular into communities serving low income and minority youth. The 
major recommendations are to continue to document the effectiveness of 
the program and to build a broader base of evidence for the program's 
impacts through two mechanisms: a larger-scale longitudinal study that 
would allow for a more comprehensive analysis of participant impacts, 
and the development of a participant registration process for FRC that 
would make it easier to keep in touch with FIRST alumni and to track 
the longer-term career trajectories of former participants.
                                 ______
                                 

          First Lego League Evaluation--Initial Survey Results

   Center for Youth and Communities, Brandeis University, April 2004

Survey Sample
    The FLL evaluation distributed survey packets to teams 
participating in a sample of 8 of the FLL regional tournaments: a total 
of 394 teams. Team packets included a coach survey, student surveys, 
and surveys for parents of students. 185 teams (47%) returned packages, 
providing a total of 162 coach surveys, 919 student surveys, and 699 
parent surveys.
FLL Coaches
    FLL coaches tend to be male (69%), white (86%), with a background 
in science or engineering (67%) and teaching (51%). 59% of the coaches 
have a child on their team.
FLL Teams
    <bullet> FLL teams are predominately located in suburban areas (60% 
suburban, 21% urban, 18% rural). Approximately 34% of teams report 
serving low-income students; 11% report teams where half or more of the 
students are from low-income families.
    <bullet> Most FLL teams meet as after-school programs (72%). 9% are 
part of a school class; 9% are neighborhood-based (i.e., not affiliated 
with a school); 5% are home-school-based.
    <bullet> Most teams (70%) met twice a week or more, with an average 
of 4.5 hours of meetings every week.
    <bullet> 97% of the teams responding to the survey did the FLL 
research project, which represented approximately 30% of their time 
spent working as a team.
    <bullet> 90% of the teams reported attending the state/provincial 
tournament; 64% participated in a qualifying event.
FLL Participants (Student Survey)
    <bullet> 70% of the FLL participants/survey respondents were boys; 
30% were girls. 78% were white, 8% Asian/Pacific Islander; 5% Hispanic; 
4% African-American.
    <bullet> The average age of participants was 11 years old. 81% were 
in 5th-8th grades (16% were younger).
    <bullet> 65% had a parent involved in the program.
FLL Student Experience
    The large majority of students reported a positive experience in 
FLL:
    <bullet> Over 90% of the students reported that the kids on their 
team made the important decisions; that they had real responsibilities 
on their teams; got all the help they needed; felt that adults working 
with the team paid attention to them; and that they felt that they were 
an important part of the team and belonged. 98% of the students said 
they had fun working on their FLL team.
    <bullet> Students reported learning a mix of knowledge and skills: 
Over 90% reported learning about the use of science and technology in 
real world problem-solving; about science and technology careers; that 
science and technology are important in everyday life; and about the 
uses of school subjects (like math or science) in solving real world 
problems.
    <bullet> Students also reported learning about themselves and their 
skills: Over 90% reported learning that they had skills that could help 
others on a project; that every team member can help make a project 
better; that both boys and girls can be good at computers and robotics; 
and that helping others solve problems can be fun.
    <bullet> Students reported learning a variety of teamwork and 
problem-solving skills. Over 90% reported learning at least ``a 
little'' about working with other team members to solve a problem; 
brainstorming ideas; making decisions about roles on a project; 
accepting others' suggestions and ideas; making suggestions to others; 
identifying steps needed in a project; managing time; using trial and 
error to test an idea; and identifying ways in which science (like 
computers and robots) can be used to solve real-world problems.
    More than 80% also reported learning how to solve disagreements 
among team members; how to work well with both boys and girls; how to 
develop a research question; how to find information to answer a 
research question; how to use math in solving real-world problems; how 
to make a presentation using charts and graphs; and how to explain the 
scientific ideas that the team used in creating their robots.
    <bullet> Team members were least likely (50%) to report learning 
how to write a brochure or letter explaining their project and (76%) 
learning to talk to people they don't know about something they think 
is important.
    <bullet> Overall, 93% of the students rated their experience in FLL 
as good or excellent (30% good, 63% excellent)
FLL Parent Assessments
    Parents also reported that they believed FLL had increased their 
children's interest in science and technology and increased their 
social and problem-solving skills.
    <bullet> More than 80% of the parents surveyed reported that FLL 
had increased their child's interest in computers and technology; in 
how science and technology are used to solve problems in the real 
world; and in the science related to the Mission from Mars. 64% 
reported an increased interest in science and technology careers, and 
59% reported an increase in interest in their children's interest in 
their math or science classes.
    <bullet> 70% or more reported an increase in their children's 
teamwork and problem-solving skills, including their ability to work in 
a group; their sense of belonging; their ability to think through the 
steps in solving a problem; their use of trial and error; their 
confidence in speaking in front of a group; and their sense that they 
can succeed if they try hard. Slightly smaller numbers of parents (60% 
or more) also reported an increased ability to compromise or settle 
disagreements peacefully; take the lead on a group project; and use the 
library or internet to find information. 63% also reported an increase 
in self-confidence concerning school and schoolwork.
    <bullet> FLL parents were less likely to report an increased 
interest in school or traditional academic skills as a result of FLL, 
though substantial numbers did report an increase. 59% reported an 
increased interest in math and science; 45% reported an increased 
interest in school generally; and 40% reported an increased interest in 
college. 43% reported an increase in math skills.
    <bullet> When compared to other after-school programs, roughly half 
(54%) of the FLL parents reported that FLL had more of an impact in 
terms of teaching about cooperation and teamwork, and approximately 40% 
indicated it had more of an impact in terms of motivating their 
children to excel (43%) and helping their children gain a sense of 
self-confidence (36%).
    <bullet> When asked if they would like to increase, decrease or 
maintain their level of involvement with FLL, 30% reported that they 
wanted to increase their involvement; 67% reported wanting to continue 
at the current level; and 3% wanted to decrease their involvement. 
However, 79% indicated that they were unlikely to stay involved once 
their child left the program.
FLL Coaches Perspectives
    FLL Coaches reported gains in student interests and skills similar 
to those reported by parents and students.
    <bullet> 90% or more of coaches reported an increase in team 
members' interest in or awareness of ways in which math and science 
were used in the real world, and their interest in computers and 
technology. 80% reported an interest in science and technology careers. 
60% or more reported an increased interest in math and science classes 
and in succeeding in school.
    <bullet> Most also reported an increase in teamwork and problem-
solving skills. Over 90% reported an increase in teamwork skills; 
leadership skills; a sense of belonging or team identity; problem-
solving strategies; and presentation skills. 75% or more also reported 
gains in planning skills, time management; research skills; and a 
belief in the importance of helping others. The lowest proportion (49%) 
reported gains in writing skills.
    FLL Coaches also reported an impact on themselves as teachers. 
Among those with a background as teachers:
    <bullet> 80% or more reported an increased emphasis on the 
application of science and technology in real world settings in their 
teaching; an increase in their own knowledge of science and technology; 
an increased sense of connection with their students; an increased 
understanding of what their students could accomplish; and an increased 
respect for what students' capacity to work as a team independent of an 
adult. 76% reported an increased use of computers and robotics in their 
classes; and 67% reported an increased use of student-led projects.
    <bullet> FLL teachers were much less like to report that FLL had 
increased school partnerships with area businesses (33%) or build 
business support for other programs at the school (28%)
    <bullet> 83% of the teachers involved in FLL reported that the 
experience had increased their satisfaction in teaching.
    Overall, FLL coaches indicated that they enjoyed working in the 
program:
    <bullet> 87% of the coaches reported that they were 'satisfied' or 
'very satisfied' with their experience coaching an FLL team. Only 1 of 
the 158 coaches responding to the question indicated that they were 
'not satisfied'.
    <bullet> 83% of the coaches reported that they planned to be an FLL 
coach again next year. Of those not returning, the most common reason 
cited was lack of time (about 40% of the non-returners). Other reasons 
included their child leaving the program, changing schools, lack of 
administrative support. None of the coaches reported disappointment 
with the program or problems in raising funds to support the team as a 
reason for not returning.
                                 ______
                                 

                      FEDERAL GRANTS RECEIVED BY UNITED STATES FIRST SINCE OCTOBER 1, 2004
----------------------------------------------------------------------------------------------------------------
                             Source                                  Reference #     Federal CFDA #     Amount
----------------------------------------------------------------------------------------------------------------
National Institute of Standards & Technology (NIST).............      60NANB4D1106          11.617    $1,187,400
National Institute of Standards & Technology (NIST).............      60NANB4D1107          11.617      $494,700
National Aeronautics and Space Administration (NASA)............             NNA05CP86G        n/a    $1,323,100
Corporation for National and Community Service (CNCS)...........        041PANH001          94.007      $391,500
Employment and Training Administration, Department of Labor;                   n/a          17.267      $350,000
 Office of Vocational and Adult Education; passed through from
 the State of Michigan, Department of Labor and Economic Growth.
National Aeronautics and Space Administration (NASA)............             NNA05CP86G        n/a    $1,350,000
National Institute of Standards & Technology (NIST).............      70NANB6H6172          11.617    $1,013,800
Corporation for National and Community Service (CNCS)...........        041PANH001          94.007      $200,000
VISTA...........................................................  .................  ..............      $20,000
National Aeronautics and Space Administration (NASA)............             NNA06CB50G        n/a    $1,675,000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
    Chairwoman McCarthy. I thank you for your testimony. I 
actually thank everybody for their testimony. You know, it is 
wonderful to be able to sit here and see the enthusiasm that 
you all have. And being that we are going to be doing 
legislation and we have heard some ideas of what you would like 
us to do, obviously, a stipend of some sort for teachers so 
they can get involved and take that project on, money for 
getting the program going, but one of the main things that I am 
hearing and what I like to hear from you--because I probably 
have 10 questions for each one of you, and that means I am not 
going to get answers probably from half of you--what would be 
the main thing that you would really want us to see done on 
legislation that would help each and every one of you?
    And I guess the second point of my interest, in the world 
that we are living in today, the global economy is out there. 
How do we reach, certainly the children in the middle schools, 
which is to me the area where we see most kids either making it 
or breaking it or dropping out, going into gangs, going into 
possibly some trouble?
    How can we change the lives of those children? How can all 
of your different organizations help us get to that point on 
service and to have that become a life- long commitment? But 
more importantly, the one thing that you say, and I say this 
every time I am in a school or anyone I am talking to, how are 
we going to change someone's life today and make it better? And 
I think that is the motto that all of us care about.
    And let me just say quickly. I know that you don't see a 
lot of members here. A lot of them have been called for a 
meeting at the White House, and when the President calls, you 
respond and go there. So, please, do not think that it is lack 
of interest. Everybody on this committee cares passionately 
about why we are on this committee.
    So don't think just because we are not here in numbers, we 
are certainly will be doing our work.
    With that, would anybody care to throw out----
    Mr. Purifico. You touched a very sensitive area of my life. 
I spent 25 years in a middle school with middle school kids and 
13 years of that as a classroom teacher and 9 years of that as 
a middle school principal. You are exactly right.
    This is an age of, where children need to be actively 
involved to set a foundation for what they might do for their 
future. They have come out of elementary school with the basic 
foundations that they have learned in various courses that they 
have had. And they begin the quest and a thirst for knowledge 
that will set a goal for them in the future.
    How might we engage them? There are numerous programs that 
exist, some of which you have heard here today. From a 
congressional basis, programs that would support active 
involvement of those kids is extremely important. Hands on 
learning, ways that they can learn how to problem solve and 
apply, take the theoretical knowledge and actually put it into 
practice; that kind of learning, that kind of education, helps 
them to retain that learning and in their future becomes much 
more substantive. And they feel good about what they are doing 
as they move forward in their lives.
    Mr. Gudonis. When Dean Kamen first started FIRST Robotics, 
we started at the high school level, and that program grew. But 
then we realized that a young man or woman in high school that 
might love being on the robotics team and realize there may be 
opportunities for them in engineering or science they never 
thought possible, that if they were a senior in high school at 
that time and they just got involved, they probably haven't 
taken the courses in algebra, precalculus, physics, chemistry, 
so we realized we had to move down into those middle school 
years.
    So we teamed up with the Lego Company to form our version 
of Little League, the FIRST Lego League, that is now our 
largest program. This year, we had over 8,800 teams, 88,000 
students worldwide; most of those in the United States. And 
that is where teachers, engineering professionals, even the 
high school students from the FIRST Robotics competition mentor 
these young teams, and they have to build a robot, to execute 
missions, but they also have to do a research project which 
they deliver in the most fantastic ways with skits and energy.
    This last year it was about nanotechnology. And they 
learned about carbon nanotubes and buckyballs and how medicines 
will be delivered in the future. And this coming year the 
challenge will be alternative energy. So we try to make it very 
relevant to the topics of the day, and it becomes a great 
pipeline. Just like we have in T-ball and Little League and 
junior varsity, in FIRST Robotics, we now have programs ranging 
from kindergarten through 12th grade following that same type 
of sports model. It becomes a pipeline for feeding young people 
into the FIRST Robotics high school competition. But I agree. 
It is really at that middle school level that really can change 
some minds.
    Chairwoman McCarthy. Thank you.
    Ms. Stroud.
    Ms. Stroud. At ICP, we have been working hard on filling in 
some details about a specific proposal that I mentioned today. 
And there is information in your packages I hope about the 
Summer of Service proposal. That is targeted specifically at 
middle school students.
    But in terms of your first question about what the 
committee can do, what the most important things are, I think 
certainly one of the most important things is to strengthenthe 
programs that exist. Learn and Serve America, for instance, 
which has the capacity, already engages many middle school 
students in service learning activities during the academic 
year, also provides money to community based organizations to 
engage students in service learning activities.
    That program has been cut significantly in the last couple 
of years and is, in terms of the President's budget request 
this year, there is another very significant cut included in 
that. So one of the things I would urge the committee to do is 
to restore to the historical funding levels of $43 million a 
year the Learn and Serve budget. That reaches now millions of 
students in the United States. So that is one very specific 
thing that I think the committee could do.
    Chairwoman McCarthy. Thank you. Unfortunately, my time is 
up, but I also want to say, we have a CD that we will be able 
to watch--a DVD, I guess it is called nowadays; right?
    We will be able to watch it later. And I am looking forward 
to it.
    My colleague, Mr. Davis.
    Mr. Davis. Thank you, again, for being with us today. It 
has been very informative. I like the enthusiasm that I see.
    I would like to start with Mr. Purifico if I could. You say 
that we need to do a better job in coordinating volunteer 
services in your testimony. What are some ideas you have or 
methods you think that would work to urge nonprofit 
organizations to better coordinate and work together?
    Mr. Purifico. There are a couple things--actually several 
things that we need to do to continue to encourage folks to 
volunteer in the various programs that are throughout the 
United States. I think one of the most important things that we 
need to do first is recognize them. These are people, as you 
well know, that dedicate their time and effort in varying 
capacities to help kids and causes move forward and do the good 
work of the people.
    So any way that you can identify--as we try to do in our 
organization--and acknowledge them for their work. It can be a 
simple letter. Within our organization, pins are a very, very 
big thing. And it is a simple--a simple way of saying thank 
you.
    The other thing that I would suggest as another way to 
continue to move forward to obtain volunteers and to support 
them is to literally--as several people sitting on this panel 
have said--support the programs that are there. They need to 
know visibly that they are being supported and that their 
efforts are in fact worthwhile. So funding--as you continually 
hear--in whatever way is possible. Those of us that are working 
in the private sector trying to do the good work for those 
people need the help and the support. The organization that I 
have the privilege and honor of running on a yearly basis will 
touch anywhere from 250,000 to 300,000 kids. We do it with 
those volunteers and a full-time staff of 14 people. It is the 
volunteers that make this happen. So, if they see that you can 
support that, we have a better opportunity and a better chance 
through funding to get more of them involved.
    They even go to the extent sometimes when, due to 
circumstances beyond their control, a school system will no 
longer, because of lack of funds, be able to support it; the 
parents will step up. And the parents will actually become 
supportive in that role. We have numerous parents that are team 
managers. They look for support. They look for ways of funding. 
And they look for acknowledgment. Those would be the two 
critical areas that I would suggest to you.
    Mr. Davis. Thank you. I am going to throw this question 
open to everyone, and we will see if we can get some quick 
answers. You think that people who have never volunteered 
before have a hard time finding places to actually get involved 
and be a volunteer? Anyone? Ms. Brown.
    Ms. Brown. People that have, we at Hands on Atlanta, that 
is because what we do, organize large groups of volunteers for 
people that have never volunteered. All they have to do is go 
on to our Web site, and there are tons of volunteer 
opportunities for them. There is also orientation and training 
for them. And what I know for sure is that, when you treat them 
good, they will come back, and they will tell others. We are 
very successful with lots of colleges in terms of mentoring 
programs. They bring more. And the program just grows by 
itself, just because they have such a good time doing what they 
do.
    Mr. Davis. Do you think that unique to the area, the Web 
sites, or do you think that is something that is available 
across our country?
    Ms. Brown. I think that it could be across the country. And 
I would like to speak specifically to AmeriCorps Alums, because 
we are trained in that way, and we can no longer pretend like 
we don't know these things. We can't plead ignorance because we 
have spent 10 months of service, and we have committed to a 
lifetime of service. So when you have people that are trained 
on that type of philosophy, they are able to bring others in. 
And that is why we need this network across this Nation, so 
that we can tap into all those resources. I have members now 
that are in medical school. They are in law school. Some are 
working for government in fair housing. Many of them are 
teachers. And they continue to serve. So there is a lot of 
talent out there. We just need a way to bring it together, tap 
into it and then spread it out.
    Mr. Davis. Thank you. That is all I have. Thank you.
    Chairwoman McCarthy. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    I am sitting here so impressed with all of you and, as a 
social worker, absolutely thrilled to see the energy and the 
excitement about your programs. And I want to ask a couple of 
questions. First of all, Mr. Newman, I, too, went down to 
Louisiana twice after Katrina, and I know of what you speak. 
And I thank you for that and for publicizing that. I also want 
to ask you if you have any ideas to help you build that network 
that you are so effective of building inside your own TV show.
    Mr. Newman. We have had a huge response since our 
documentary aired. We have had not only people volunteering for 
us, but I was down in Biloxi again just a couple of months ago, 
and I know that, after that piece aired, their phones were 
ringing off the hook. Corporate sponsorship, individual people 
wanted to come down, and they referred to it as the Guiding 
Light experience that they wanted to have, which sounds to me 
like a Disney ride or something like that, but if that is what 
they are looking for, that is great.
    I think, for us, it was just a matter of showing people 
through a documentary that there are opportunities out there 
for them to volunteer and that it is something that people can 
do. I think there are a lot of people out there that they think 
that they don't have the skills to do some kind of work, the 
kind of work that we did down in Biloxi and that their time 
wouldn't be made useful because they don't really know what 
they are doing. What we found, again, organizations like Hands 
on, AmeriCorps, organizations like that, is that the need is 
there, and the training is there as well.
    People can be empowered and make a significant difference 
over the course of their time that they volunteered.
    I think it is just a question of educating people.
    Ms. Shea-Porter. So you are not losing people. You are 
channeling them elsewhere. I was listening when you said 100, 
150 people. As somebody who used to have to call up every 
volunteer to find somebody to drive or do whatever, I thought, 
I hope we don't lose the rest of them. So you do have a place 
for them to go to if they can't be accommodated by your 
program?
    Mr. Newman. Absolutely and many of the people who have 
volunteered for these smaller events that we are doing have 
also said to me and to others in our show they are also going 
to be going down to the gulf coast; they are going to be going 
down to New Orleans and Biloxi as well as joining us in 
Richmond, Virginia. It just feeds out.
    Ms. Shea-Porter. It does and thank you for using that 
position. And for those who think you really do have to know 
what you are doing. My then 16-year-old went down there, and he 
put books on library shelves. And if he could do that, I am 
sure anybody could do that. So some of the tasks are so simple 
and yet so necessary to rebuild those lives.
    Mr. Newman. The last week of June, I will be taking my 
family down. My 18-year-old son and my 15-year-old daughter and 
my son's girlfriend. They watched our documentary, and they had 
a sense, oh, I can do that.
    And they want to do that.
    Ms. Shea-Porter. They do.
    Mr. Newman. The younger kids we talked about earlier, I 
really think that they are looking for something to, some way 
to contribute in a significant way. And they want to do it. It 
is just a question of giving them the opportunity to do it and 
showing them that they can do it.
    Ms. Shea-Porter. Ties in nicely with what I was going to 
ask you, Ms. Stroud, because it is a gift to young people to 
make them count and make them realize how necessary they are to 
fit in our society. And I actually sat next to a lot of young 
people who were AmeriCorps, and they were helping down in 
Katrina also. And they were absolutely wonderful. And I thought 
a lot of the kids would have been walking around the mall and 
aimlessly trying to find some kind of meaning for the day; and 
here they were, and you could not stop them. They worked 15, 
16, 17 hours and signed up to do more and more. So it is a gift 
to them as well as a gift to the community.
    So I wanted to ask you, Ms. Stroud, because you were 
talking about your program, that Summer of Service, and how 
well I know that age group and the difficulty they can get into 
if they don't have that sense of inspiration and being really 
important to our culture.
    Exactly how is that program ministered? And I will put a 
plug in about the money right now, that all of these programs, 
when they are effectively administered--and most of them are--
because the people who are volunteers are the heart and soul in 
success, pay us back so many times over not just in the money 
but in the service they deliver. So I have, you know, certainly 
support for the program, but exactly what are you doing with 
these kids over the summer to make them feel like they are 
needed?
    Ms. Stroud. Well, there are many. There are many examples 
of programs that engage middle school-aged students in service. 
But I think it hasn't been taken to scale in the way that the 
Dodd, Cochran and DeLauro bills propose to do. They would like 
to provide enough opportunities to make it universally 
available to all middle school students transitioning in the 
summer, transitioning between middle school and high school and 
to create it as a sense of a rite of passage for young 
Americans.
    It is a tradition that we don't have in the United States 
so much as we have in other cultures. And this might actually 
help to create a sense of, this is what you do if you are a 
middle school student before going on to high school. So the--I 
agree with you as well that the issue is not the lack of 
interest in volunteering on the part of students in that age 
category. My experience is that it is a lack of opportunities. 
And when they are given the opportunity to serve, they will 
rise to the occasion. So the bill proposes to create, as I 
said, a kind of universal access to Summer of Service programs 
that would be created through a competitive grants program 
administered by the Corporation for National Service.
    Ms. Shea-Porter. Thank you.
    Chairwoman McCarthy. Time up.
    Mr. Sarbanes, do you have any questions? Just to let you 
know, we are going to be having a vote coming up soon. We will 
be able to finish. I was actually hoping we could go for a 
second round, but apparently that is not going to happen, so, 
Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Chairwoman McCarthy, and I just 
want to thank you for your leadership on these issues. I know 
that people find their ways to chairmanships of these 
committees not just based on tenure but based on interest and 
passion on the issues that are within their jurisdiction. And 
this is a second hearing already that we have had on the issue 
of service and volunteerism, and that is a tribute to the 
passion you bring to it, and it is one that I know we share, so 
thank you very much for that.
    Terrific panel. Inspiring panel. There will come a day 
when, in hopes of hearing what you have to say, that the room 
will be so packed that people will be standing in the hallways.
    And I know that day will come. And I know it will come 
because of the energy and enthusiasm that you bring.
    I do just want to say, I was able to attend the Chesapeake 
FIRST competition finals at Annapolis Naval Academy, and so it 
is go to see you here, Paul, and I know Mildred Porter is here 
as well, and tremendously exciting. I hadn't been to one of 
those before, and now I am going to make sure it is always on 
my calendar so I can go back there and bring my three kids as 
well. In fact, I got up the next morning but didn't get in gear 
fast enough and then realized that the actual final competition 
on Sunday was happening earlier in the day than I thought. I 
was on my way to Annapolis when I checked the schedule and then 
had to turn around and come home. So it is a wonderful 
opportunity for our kids.
    The AmeriCorps program, it is amazing that the 500,000th 
volunteer is about to come into the program and what a 
testament to what this Nation can do when it puts its mind to 
it.
    All the programs that you have talked about and alluded to 
are part of trying to bring our country together around these 
service opportunities. I am very proud that, in Maryland, 
service learning is part of the requirement for graduation in 
our high schools. And I think that kind of emphasis is one that 
can bring across the board. And leadership at the Federal level 
will obviously help with that because, as one of you said, 
service is something to be learned. It is not necessarily an 
aid; it is for some people, and they are the leaders. But to 
get it spread throughout society, we have to inculcate it in a 
very focused and organized fashion.
    I am also just intrigued by the idea that, these days, when 
there are so many things that isolate us from one another, 
particularly our children--kids can spend so much time with 
electronic games, television, IM-ing and so forth, sequestered 
in their rooms--volunteering is a way to get them out and 
working together. And it can match that kind of isolation and 
allows people to share perspectives.
    Here is my question, really, there are two questions, and 
the first is, this notion of creating an infrastructure to 
allow volunteerism and service to really to bloom and reach its 
maximum potential in this country, because you know there are 
those, you get caught up in a thousand points of light 
perspective, that says, well, people on their own initiative, 
they will wake up one day, and they will figure out they need 
to go volunteer, and they will find their way to the 
opportunity. 
    But if the infrastructure is not in place, it is not going 
to happen, and it is not only that; it is a disservice to 
volunteers you want to help when the infrastructure is not 
there. I think we saw that in Katrina. If the infrastructure of 
the government and other agencies could have been better, could 
have been more prepared, you would not have had volunteers 
frustrated by their inability to get in there immediately and 
help. We have a chance--instead of sort of pointing fingers of 
acrimony and having those be the images, we want to cause this 
country to have the images of volunteerism being celebrated.
    So, if you could, talk to the infrastructure question, 
anyone who would like to do that.
    Mr. Gudonis. Well, I am glad you joined the first robotics 
competition. We run thousands of those types of competitions 
between qualifying rounds, regional, national, and world 
championships. So we invest heavily in information systems, in 
training to basically be able to recruit new volunteers, to 
train them effectively with online seminars, with coaches' 
manuals, with in-person workshops. We use the Web site 
extensively, and we have been able to very much tap into the 
AmeriCorps Vista Volunteers and the Corporation for National 
and Community Service Volunteers. As I mentioned in my 
testimony, they are able to leverage themselves 100-fold 
because then they go out in their communities and then recruit 
these other volunteers. It is that infrastructure, though, 
around systems so that we can staff all of these events, so we 
have got referees; we have got judges; we have got people 
running the scoring systems. So it is really the systems 
infrastructure that we have put in place over a number of years 
which has enabled us to scale up like we have and, you know, 
conduct thousands of events with 60,000 volunteers effectively.
    Mr. Purifico. I think an important area is that all of us 
here have various ways that we attract folks to hopefully come 
and volunteer for our organizations. Word of mouth, publicity, 
PR, brochures, materials that we send out, and the volunteers 
themselves are a huge source of referring the organization to 
other folks.
    But if I can bump it up to about 30,000 feet, if I may, the 
larger question is in what ways might we, this country, find a 
place, which is what I heard you say, where folks who want to 
volunteer can go volunteer, and in that area of ``in what ways 
might we,'' wouldn't it be nice if we had some place listed or 
even sanctioned, a place of sanctioned volunteer organizations 
that folks could go look at and see and identify the areas that 
they would like to give of their time. That would be very, very 
helpful, and I think a lot of folks look for places to do that.
    By the way, if you are not busy this Saturday, the proud 
State of Maryland's Destination ImagiNation will celebrate its 
25th year of existence, and the tournament is there.
    Mr. Sarbanes. That is good to know, good to know.
    Let me ask: Can I have one quick follow-up? I know I am out 
of time. Quick.
    Just as to how we measure volunteerism, is it hours served? 
Is it the number of people that we see? I mean is there any way 
to do that in a way that is accurate, that you think reflects--
maybe just a couple of people could jump in on that because it 
is important in terms of evaluating the success of these 
efforts.
    Yes.
    Ms. Stroud. It is important to measure a number of things. 
One is what the impact is on the participants, but we also 
ought to measure what the impact is on the community and, you 
know, what is getting done as a result that would not otherwise 
have been done, and those should be issues that are really 
vital and important and defined by the community as the 
community's highest needs, and there is--I do not know if you 
are familiar, for instance, with the longitudinal study that is 
being done of AmeriCorps being carried out. It is looking at 
the impact on the participants, but there is increasingly now a 
fairly solid research base about impact and more sophisticated 
tools for assessment.
    Mr. Sarbanes. Great.
    My time is up. Thank you very much.
    Chairwoman McCarthy. And I thank you.
    We have been joined by the ranking member, Mr. Platts, and 
I just want to say something.
    I have given everybody a little bit of leeway with the red 
light. If we had a full committee here, I would be a little 
stricter, but being that we had a really good dialogue, Mr. 
Platts.
    Mr. Platts. Thank you, Madam Chair, and I apologize for my 
late arrival. A group of six of us, Republican and Democratic 
Members, just came back from Iraq and Afghanistan, and we had 
the opportunity to meet with the President for about an hour, 
so I apologize, though, in not being here for the hearing.
    Again, I thank you for your leadership on this very 
important issue as we move forward with reauthorization.
    While I am going to be very brief because I know we have 
votes coming up here shortly as well, I do want to thank each 
of the witnesses for your testimony but especially for your 
leadership out there in your communities in promoting the 
volunteer and community spirit of our Nation. I have just one 
question, and it is something that I do not think exists that I 
have seen in a coordinated way, and I will make an analogy.
    Back home in Pennsylvania, we rely heavily on volunteer 
firefighters. It is the backbone of most communities. In my 
district, I have one fully paid department, and in the rest of 
my communities I have over 100 volunteer departments. We are 
working with them to promote the need of each of those 
departments within the community and through my newsletter and 
through our Web site, and then statewide, there is what is 
called the Pennsylvania Fire Services Institute, and they do a 
statewide program, you know, where anywhere in the State you 
can call a 1-800 number and learn about your local community 
for volunteer or emergency-related service volunteerism.
    In your experience in various locations, have you seen 
anything of that nature? I do not know if we could do it 
nationally through PSAs and, you know, through a national 
campaign effort and then put everyone in touch with local 
groups, such as your own, in your local communities or at least 
at the State level. I would be interested in each or any of 
your feedback on that type of approach. I think people are 
aware of AmeriCorps. They are aware of SeniorCorps, Learn and 
Serve but maybe not who to call. They just know these programs 
are out there.
    So, thank you.
    Ms. Brown. Recently, we had a conference in New Orleans, 
and the Red Cross was there, and disaster relief people across 
the United States were there, and clearly, if there is nothing 
in place, it does not work very well because people know that 
they wanted to come, and the Red Cross kept giving countless 
examples of people showing up with their suitcases who ended up 
being in the way rather than helping. So, even though they had 
a strong desire to help, it really was not a good thing. So 
then we began to think about ways for disaster, not only to 
respond but to prepare ahead of time. Could we have blocks that 
were block by block, you know, senior citizens' making sure 
that everybody has a survival kit or going block by block? 
Because do you even know who to call or where to go if there is 
a disaster? Could we put in programs in neighborhoods where 
everybody meets or the church, and we know that Ms. Lilly down 
the street is in a wheelchair, so we have got to go get her 
first? So those types of things. So we talked about that, but 
clearly, clearly, we have got to be organized, and all of these 
entities are going to have to find a way to work together.You 
know, everybody is so ``this is mine over here,'' and ``this is 
mine over here.'' it will not work like that. They are going to 
have to find a way. So we did talk about those things.
    So, you know, in your mind, you begin to think on the 
ground level that you could put these things in place and with 
the fire departments in your neighborhoods because these are 
all communities, and if for no other reason, that specific 
community would know where to go and how to respond. So we 
think that with the right leadership and the right pieces in 
place that it could very much happen. It must happen.
    Mr. Platts. Yes.
    Ms. Stroud. It sounds like it is partly a pipeline issue. 
You have got to get enough people into the pipeline, so having 
a specially designated AmeriCorps team that would work with 
local volunteer fire departments, and one of the 
responsibilities that AmeriCorps members has is to leverage 
other volunteers. So they could, for instance, help to set up 
chapters on local college campuses in the communities where you 
have these volunteer fire departments that could even work with 
senior high school students in terms of providing some training 
and introducing them to the role of the volunteer fire 
department. So that is the kind of infrastructure issue that I 
think AmeriCorps responds to really well.
    Mr. Platts. Yes, sir.
    Mr. Gudonis. Well, we engage 2,000 major companies to 
provide more technical mentors, engineers, scientists, and many 
of these companies want to reach out to their existing 
employees but also to their retiree base, and so we often now 
establish someone who is head of volunteerism. For example, 
with GM, one person coordinates 275 engineers who work with 
students all across the country. I was invited to GE, and they 
put us on their Intranet, their Web site, so that their 330,000 
employees can see volunteer opportunities but also want to 
reach out to the half million retirees. I think that is a 
growing population that just wants to share their skills and 
experience in various endeavors, with young people, with 
projects like firefighting, and so on. So there is a whole pool 
of talent there. You cannot play golf every day.
    Mr. Platts. Yes. I think, as we go to reauthorization, it 
is looking at how better to empower those individuals who have 
the ability, the time, and want to give back to be able to 
connect with the various opportunities that are out there and 
something that, you know, we can look at through 
reauthorization.
    Again, my apologies, Madam Chair, for a late arrival, and 
my sincere thanks to each of the witnesses for their work. 
Thank you.
    Chairwoman McCarthy. Thank you.
    I want to again thank you for your testimony. It is really 
appreciated. I think we have got some pretty good ideas. We 
know what you need, and hopefully we can sit down and work 
these things out and go forward on it.
    As previously ordered, members will have 7 days to submit 
additional materials for the hearing record.
    Without objection, this hearing is adjourned.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Madam Chair, for holding this important hearing to 
discuss how we can renew the spirit of national and community service 
in America.
    I would like to extend a warm welcome to all of the witnesses. I 
appreciate the time you took to be here today and look forward to your 
testimony.
    Unfortunately, in this country community service is frequently not 
seriously considered when formulating public policy. By not including 
community service in discussions of how to combat our most serious 
societal issues, we exclude a tool which can be effective in helping 
deal with these issues. It is my hope that through the series of 
hearings that this committee is having on community service that we are 
able to highlight ways in which this possible.
    Today, I am particularly interested to hear from Mr. Gudonis and 
Mr. Purfico, because the service programs each of them represent deal 
with an issue of great importance to me, the need to improve STEM 
education in this country. In the 2005 Skills Gap report 80 % of U.S. 
manufacturers surveyed reported a shortage of qualified workers and 65 
% of these manufacturers specifically cited a shortage of engineers and 
scientists.
    Community service alone can not solve this critical problem, 
however, it can be used to help. I look forward to hearing from Mr. 
Gudonis and Mr. Purfico, as well as the other witnesses, about how 
Congress can assist their successful programs and help foster similar 
programs.
    Thank you again, Madam Chair, for holding this valuable hearing. I 
yield back the balance of my time.
                                 ______
                                 
    [Whereupon, at 11:42 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
